<html>
<title> - H.R. 4200</title>
<body><pre>[Senate Hearing 109-826]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-826
 
       H.R. 4200--THE FOREST EMERGENCY RECOVERY AND RESEARCH ACT

=======================================================================

                                HEARING

                               before the

    SUBCOMMITTEE ON FORESTRY, CONSERVATION, AND RURAL REVITALIZATION

                                 of the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION


                               __________

                             AUGUST 2, 2006

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
30-433                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                   SAXBY CHAMBLISS, Georgia, Chairman

RICHARD G. LUGAR, Indiana            TOM HARKIN, Iowa
THAD COCHRAN, Mississippi            PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            KENT CONRAD, North Dakota
PAT ROBERTS, Kansas                  MAX BAUCUS, Montana
JAMES M. TALENT, Missouri            BLANCHE L. LINCOLN, Arkansas
CRAIG THOMAS, Wyoming                DEBBIE A. STABENOW, Michigan
RICK SANTORUM, Pennsylvania          E. BENJAMIN NELSON, Nebraska
NORM COLEMAN, Minnesota              MARK DAYTON, Minnesota
MICHEAL D. CRAPO, Idaho              KEN SALAZAR, Colorado
CHARLES E. GRASSLEY, Iowa

            Martha Scott Poindexter, Majority Staff Director

                David L. Johnson, Majority Chief Counsel

              Vernie Hubert, Majority Deputy Chief Counsel

                      Robert E. Sturm, Chief Clerk

                Mark Halverson, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

H.R. 4200--The Forest Emergency Recovery and Research Act........     1

                              ----------                              

                       Wednesday, August 2, 2006
                    STATEMENTS PRESENTED BY SENATORS

Crapo, Hon. Mike, a U.S. Senator from Idaho......................     1
Coleman, Hon. Norm, a U.S. Senator from Minnesota................    12
Lincoln, Hon. Blanche L., a U.S. Senator from Arkansas...........     8
Salazar, Hon. Ken, a U.S. Senator from Colorado..................    10
                              ----------                              

                               WITNESSES
                                Panel I

Rey, Hon. Mark, Under Secretary for Natural Resources and 
  Environment, U.S. Department of Agriculture....................     4
Scarlett, Hon. Lynn, Deputy Secretary, U.S. Department of the 
  Interior.......................................................     3

                                Panel II

Crouch, Jim, Executive Director, Ouachita Timber Purchasers 
  Group, Russellville, Arkansas..................................    22
Kupillas, Sue, Executive Director, Communities for Healthy 
  Forests........................................................    20
Ringo, Charlie, Oregon State Senator, Beaverton, Oregon..........    24
Thompson, Alan, Commissioner, Ravalli County, Montana, on behalf 
  of the National Association of Counties........................    19

                               Panel III

Helms, John A., Ph.D., Professor Emeritus of Forestry, University 
  of California, Berkeley, on behalf of the Society of American 
  Foresters......................................................    33
Karr, Jim, Ph.D., Ecologist and Professor Emeritus, University of 
  Washington, Seattle, Washington................................    34
Krepps, Robert L., St. Louis County Commissioner, Duluth, 
  Minnesota......................................................    36
MacSwords, Leah W., Director and State Forester, Kentucky 
  Division of Forestry, on behalf of the National Association of 
  State Foresters................................................    38
                              ----------                              

                                APPENDIX

Prepared Statements:
    Crouch, Jim..................................................    48
    Helms, John A................................................    53
    Karr, Jim....................................................    61
    Krepps, Robert L.............................................    66
    Kupillas, Sue................................................    70
    MacSwords, Leah W............................................    76
    Rey, Hon. Mark...............................................    80
    Ringo, Charlie...............................................    85
    Scarlett, Hon. Lynn..........................................    87
    Thompson, Alan...............................................    91



       H.R. 4200--THE FOREST EMERGENCY RECOVERY AND RESEARCH ACT

                              ----------                              


                       Wednesday, August 2, 2006

                               U.S. Senate,
 Subcommittee on Forestry, Conservation, and Rural 
                                     Revitalization
         Committee on Agriculture, Nutrition, and Forestry,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9 a.m., in 
Room SR-328A, Russell Senate Office Building, Hon. Mike Crapo, 
Chairman of the Subcommittee, presiding.
    Present: Senators Crapo, Coleman, Lincoln, Daytan, and 
Salazar.

STATEMENT OF HON. MIKE CRAPO, A U.S. SENATOR FROM THE STATE OF 
                             IDAHO

    Senator Crapo. The hearing will come to order. This is the 
Senate Subcommittee on Forestry, Conservation, and Rural 
Revitalization, holding its hearing regarding H.R. 4200, the 
Forest Emergency Recovery and Research Act. I want to thank 
everybody for being here today to discuss H.R. 4200, and I 
would especially like to thank our Deputy Secretary, Lynn 
Scarlett, and Under Secretary Mark Rey, and all the other 
witnesses, many of whom have traveled great distances and gone 
to a lot of work to be here. I want to thank everybody for 
taking the time to be here and provide your testimony for this 
important legislation.
    H.R. 4200 is a bipartisan bill introduced by 
Representatives Greg Walden and Bryan Baird and co-sponsored by 
146 of their House colleagues. It was passed by the House of 
Representatives on May 17. The legislation is a product of 2 
years of work to identify and address obstacles to forest 
recovery following catastrophic events.
    3 years ago, this committee worked in a bipartisan fashion 
to pass the Healthy Forest Restoration Act, and many of you 
here today were here then to help make that a success. I was 
pleased to work closely with the subcommittee ranking member, 
Senator Blanche Lincoln, to see that that bill was enacted.
    With millions of acres of Federal land at high risk of 
catastrophic fire, prolonged drought affecting many States 
across the Nation, and the potential for hurricanes and storms, 
the Healthy Forest Restoration Act has provided Federal land 
managers with the tools necessary to improve the health of 
forests and rangelands. Progress is being made. Work is under 
way to limit the risk on our Federal lands.
    However, as work is being done additional storms and fires 
and other natural events are contributing to the backlog of 
more than one million acres of national forests in need of 
reforestation. For instance, the National Inter-Agency Fire 
Center is currently reporting large fires in Arizona, 
California, Idaho, Minnesota, Montana, Nebraska, Nevada, North 
Dakota, Oklahoma, Oregon, South Dakota, Texas, Utah, 
Washington, and Wyoming. These fires are destroying property, 
degrading air and water quality, damaging fish and wildlife 
habitat, and threatening lives and communities.
    I recognize the important and valuable role that fire plays 
in our ecosystem. However, in many cases we are not talking 
about normal healthy ecosystems. The fires that are a result of 
unnatural fuel loads do tremendous damage to our forests and 
with the current state of our forests this is all too often.
    However, this legislation is about more than forest fires. 
It is about what happens when the last flame from a forest fire 
is extinguished. It is about what happens after a tornado, such 
as the tornado that tore a 12-mile swath through Idaho's 
Payette National Forest in June, impacting nearly 5,000 acres 
of public land and private forested land. It is about what 
happens after hurricanes knock vast stretches of forest land. 
It is about what happens after insects infest forests, 
threatening neighboring communities.
    This legislation is about restoration and ensuring that 
Federal land managers can respond in a timely manner when 
disaster strikes to limit the impact on neighboring 
communities. The legislation is about planning ahead. It seems 
to me that it is just common sense to be as prepared as 
possible to respond quickly and effectively when a catastrophe 
occurs.
    While we cannot always predict the specifics of natural 
disasters, we can be prepared with recovery plans when disaster 
strikes. An important aspect of this legislation is that it 
provides for that kind of forward planning by providing for the 
establishment of pre-approved management practices.
    The legislation also strengthens research by requiring 
forest health partnerships with colleges and universities when 
establishing post-catastrophe research projects and requiring 
development of independent third party peer-reviewed research 
protocols.
    The bottom line is that failure to bring a forest back to a 
healthy condition after a catastrophe can leave the forest more 
susceptible to additional fire, pest outbreaks, and threaten 
families and wildlife that live in and or around our natural 
resources.
    Today we are going to hear from witnesses representing the 
administration, local stakeholders, the environmental 
community, the private industry, scientists, and foresters. All 
of our witnesses have a valuable perspective to share as we 
look to provide our Federal land managers with the tools 
necessary to ensure timely recovery from catastrophic events. I 
know the committee is going to find this information presented 
very helpful as we move forward to consider this legislation.
    With that, I am going to move on to our first panel. Let me 
remind not only our first panel, but all of our witnesses, that 
you have been notified to try to keep your remarks to 5 
minutes, and we have a little clock in front of you to help you 
do so. I almost always jokingly say in my case my 5 minutes is 
gone before what I have to say is done. Please be assured that 
the reason we have the 5-minute rule is so that we can have a 
good give and take in questions and answers, and if you do not 
have the opportunity to finish your statement during your 
initial presentation you will certainly have an opportunity to 
make your points in the question and answer period. So please 
try to pay attention to the clock.
    For those like me occasionally who forget to pay attention 
to the clock, if it starts running over too much I will just 
lightly tap the gavel to remind you to take a glance at it.
    With that, we have with us today, as I indicated, in our 
first panel Lynn Scarlett, the Deputy Secretary of the U.S. 
Department of the Interior, and Mark Rey, the Under Secretary 
for Natural Resources and Environment of the U.S. Department of 
Agriculture. We will start with you, Ms. Scarlett.

    STATEMENT OF HON. LYNN SCARLETT, DEPUTY SECRETARY, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Ms. Scarlett. Thank you, Mr. Chairman. Thank you for the 
opportunity to discuss the Forest Emergency Recovery and 
Research Act. The administration and the Congress have provided 
Federal land managers with tools to improve health of public 
forests and rangelands. As you noted in your remarks, these 
tools are making a difference. Together, the Forest Service and 
Interior's agencies have reduced hazardous fuels since 2001 on 
over 17 million acres of public and tribal lands.
    However, when fire, drought, insect epidemics, or other 
catastrophic events occur on public lands, procedural delays 
under current laws still prevent timely implementation of 
recovery and restoration activities. H.R. 4200 would provide 
tools to expedite recovery and restoration activities. To date 
this year, over five million acres have burned. Much of these 
acres would benefit from post-fire restoration actions in a 
timely fashion.
    Post-fire situations often require a rapid coordinated 
response to assure effective recovery and restoration efforts. 
Current authorities and procedures make coordinated 
decisionmaking among Federal, State, and local land managers 
difficult. For example, the Bureau of Land Management missed an 
opportunity to coordinate salvage and restoration activities 
with an adjacent landowner in the area burned by the Timbered 
Rock Fire in 2002 in Oregon. The adjacent landowner moved ahead 
immediately with salvaging and within 1 year had salvaged and 
replanted all 9,000 acres of burned land. Because of the 
procedural requirements to salvage and replant on Federal 
lands, most of the Bureau of Land Management portion of the 
burned area was not salvaged, although a portion was eventually 
replanted.
    Provisions of H.R. 4200 would increase the likelihood of 
effective restoration on a landscape or watershed basis. The 
bill establishes a process for pre-approved management 
practices that may be implemented immediately after 
catastrophic events to recover economic value of timber as well 
as undertake reforestation and revegetation.
    The need for this authority is acute on Bureau of Land 
Management rangelands as well as forests and woodlands. For 
example, after the 67,000 acre Jackie Butte Fire near Vale, 
Oregon, the Bureau of Land Management proposed a 33,000-acre 
emergency stabilization rehabilitation project to drill and 
seed the site to reestablish sagebrush steppe. The project met 
with protests, appeals, and delays to the point that fall 
seeding windows were missed. Though some 28,000 acres were 
eventually seeded due to light snowpack in the winter, the 
rehabilitation benefits were significantly less than had we 
been able to do that project in a timely fashion.
    H.R. 4200 would replace some current BLM planning and 
program operations for post-catastrophic event recovery and 
restoration with a new system of pre-approved management 
practices for events affecting 1,000 or more acres of Federal 
land. The list and use of pre-approved management practices 
meet the NEPA requirements. By authorizing rapid responses to 
prevent the loss of deteriorating timber resources after a 
catastrophic event, H.R. 4200 strives to make post-fire 
landscape and community economic recovery a priority. The 
administration strongly supports these goals.
    Fuels projects and post-fire recovery can produce 
significant amounts of small diameter woody materials. Better 
coordinated technical support, investment, and incentives can 
enhance development of infrastructure and help new technologies 
that make profitable use of forest and rangeland resources 
available at the advent of emergency salvage and recovery 
projects.
    H.R. 4200 also addresses one of the Department's most 
vexing problems, the inability to implement recovery actions on 
fire-damaged lands despite agency compliance with current laws. 
In cases such as the Timbered Rock Fire, the environmental 
impact statement was developed with extensive public 
participation in the NEPA process and included a peer-reviewed 
science research component. Nonetheless, subsequent litigation 
resulted in BLM being prohibited from conducting many of the 
proposed restoration activities, including salvage logging of 
17 million board-feet of dead and dying timber worth about $1.3 
million.
    In the BLM's portion of the Biscuit Fire in Oregon, where 
the Bureau proposed to harvest 2.4 million board-feet of dead 
and dying timber worth about $124,000, a judge recently lifted 
restrictions on harvest of post-fire materials. Unfortunately, 
in the years during which the BLM has been responding to 
litigation the timber has deteriorated to the point that it is 
almost unsalvageable. In the last 2 years it has lost 75 
percent of its value.
    While the administration strongly supports the House 
version of H.R. 4200, we do continue to have some concerns 
about the spending provisions of Title 4. We welcome the 
opportunity to work with the committee to address any of these 
concerns, and I would be happy to answer any questions.
    [The prepared statement of Ms. Scarlett can be found on 
page 87 in the appendix.]
    Senator Crapo. Thank you very much.
    Mr. Rey.

    STATEMENT OF HON. MARK REY, UNDER SECRETARY FOR NATURAL 
   RESOURCES AND ENVIRONMENT, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Rey. Thank you, Mr. Chairman, and thank you for 
inviting me to talk with you today about H.R. 4200. The 
administration strongly supports Congressional enactment of 
H.R. 4200 and I will submit the administration's statement of 
policy issued during House consideration of the measure for the 
record of this hearing.
    President Bush recognized the need to restore our Nation's 
public forests and rangelands to long-term health with the 
introduction of the Healthy Forests Initiative. The President 
directed the Federal agencies under Under Secretary Scarlett 
and my jurisdiction to develop tools to allow Federal land 
managers to restore hazardous fuels conditions in a timely 
manner.
    The Congress passed legislation that allowed for long-term 
stewardship contracts to implement management goals, including 
fuel reduction projects. This committee was instrumental in 
enacting the Healthy Forest Restoration Act of 2003, which is 
helping to address severe forest health conditions in a 
meaningful timeframe.
    While we now have tools to assist us in treating forests 
and grasslands to recapture healthy conditions before a 
catastrophe occurs, we still have the need for similar tools to 
help us recover and restore areas after catastrophic events, 
such as wildfires, hurricanes, or tornadoes and other wind 
events, and ice storms and insect and disease infestations have 
occurred.
    So far this year, wildland fires have burned over 5.6 
million acres on Federal, State, and private lands throughout 
the Nation and destroyed over 1700 structures. Last summer 
Hurricanes Katrina and Rita along the Gulf Coast destroyed 
cities, tragically took many lives, and disrupted millions of 
others. These storms also caused moderate to severe damage to 
about 20 million acres of woodlands, including private, State, 
and Federal ownerships, across the Gulf States from Texas to 
Florida.
    Along with causing physical damage, Hurricanes Katrina and 
Rita have adversely impacted many ecosystem functions and 
processes that create conditions for attack by invasive 
species. Invasive insects and diseases pose great risks to 
America's forests and have risen to catastrophic levels over 
the recent past. 20 million ash trees have been killed already 
by the emerald ash borer in Michigan, Indiana, Illinois, 
Maryland, Ohio, and Virginia. The non-native hemlock woolly 
adelgid is currently affecting over half of the native range of 
hemlock species. Sudden oak death has the potential to affect 
susceptible oaks in most of the eastern United States. In 
Colorado and Wyoming alone, bark beetles have killed trees 
covering 1.7 million acres, and across the western United 
States there are currently 6.6 million acres similarly 
affected.
    These are some of the examples of the scope of the 
challenges to our research managers and we are using our 
current authorities to address these matters. However, we 
believe H.R. 4200 would provide some additional innovative 
authorities to improve the ability of the Secretary to promptly 
implement recovery treatments in response to catastrophic 
events affecting Federal lands. While these treatments include 
the removal of dead and damaged trees, the bill covers the 
entire spectrum of resource needs. Reforestation treatments, 
road and trail rehabilitation, and infrastructure repair are 
among other commonly critical aspects of post-disturbance 
recovery covered by the bill.
    H.R. 4200 would also support the recovery of non-Federal 
lands damaged by catastrophic events and would provide similar 
authority for Forest Service experimental forests.
    The Department strongly supports the goals of the 
legislation and its intent to get recovery actions accomplished 
promptly, while focusing on maintaining sound environmental 
decisionmaking and public involvement. We urge rapid Senate 
consideration and enactment of the measure.
    Thank you.
    [The prepared statement of Mr. Rey can be found on page 80 
in the appendix.]
    Senator Crapo. Thank you very much, Mr. Rey.
    I will ask questions first and then as I turn to our 
colleagues who have joined us, we will give you an opportunity 
if you want to make an opening statement at that time, and then 
you can proceed with questions.
    First I have a couple questions for both of you together 
and I encourage both of you to respond. The first question is 
what are the current impediments to active recovery and 
reforestation on the Forest Service and BLM lands?
    Ms. Scarlett. Yes, Senator. As I mentioned in my testimony, 
we are continuing to face litigation, protests, appeals, and 
other actions when we try to move rapidly forward with our 
post-catastrophe restoration activities. As I indicated, in the 
Biscuit Fire, in its wake, that brought us to 2 years to 3 
years after the actual event occurred before we could get in 
and do constructive work. That is one example, but we face that 
across the landscape in many instances.
    Mr. Rey. I think even in more perfect situations, where 
there are not appeals or litigation, the case law that is 
already developed concerning the kind of analysis and the depth 
of analysis that is required makes many projects' timeframe not 
susceptible to rapid recovery of these systems. So the burden 
of existing case law, particularly the kinds and scope of 
analysis required by NEPA, is an impediment to moving very 
quickly. We are, within the landowning community, the Federal 
Government is by far the slowest actor in recovering from a 
natural catastrophe.
    Senator Crapo. When Senator Lincoln and I joined forces a 
few years back to bring the Healthy Forest Restoration Act 
forward, these same kinds of issues were presented and we 
developed an approach to addressing them in that act. I 
understand that that act had limited parameters in terms of its 
applicability, but has the approach taken in the Healthy Forest 
Restoration Act worked to address these kinds of issues?
    Mr. Rey. It has worked very well to address these kinds of 
issues in situations involving actions that are preventative in 
nature, and that is its major thrust, providing us expedited 
authorities in some respect similar to those in this 
legislation for 20 million acres of Federal land to do 
preventative work. What we are talking about in this situation, 
in this legislation, is what we do after a catastrophe has 
occurred.
    Senator Crapo. Thank you.
    The GAO report released on Monday highlights the need for 
better prioritization of recovery projects. Does this act help 
address the need for that by mandating post-event evaluations?
    Ms. Scarlett. I would suggest that this act would be a 
significant advance with respect to our ability to set 
priorities with restoration activities. It does ask that we do 
a post-catastrophe evaluation, work also with community 
wildfire protection planning processes to integrate our 
identification of restoration priorities with neighboring 
communities and adjacent lands. So I would suggest that it will 
be a significant help in that regard.
    Senator Crapo. Thank you.
    In your testimony, Mr. Rey, particularly your testimony, 
you indicate that the debate over salvage logging is carried on 
without the benefit of a lot of effective science, scientific 
information. One of the emphases of H.R. 4200 is to improve 
forest restoration and recovery science. Do you believe that 
the provisions of the act in the area of science are effective 
or will be effective?
    Mr. Rey. I think the act rightfully encourages the 
development of additional data to apply what we know in a more 
site specific sense. The big problem with the debate as it is 
being carried out today is that it exists at a very general 
level, with some parties saying that salvage is good and some 
parties saying salvage is bad as sort of a categoric statement. 
The truth lies closer to when is it good and when is it bad, 
based on what you are trying to accomplish in the site specific 
circumstances associated with the disaster that you are 
responding to.
    I think what this bill does is provide some mechanisms 
forest report us to generate additional data to answer those 
kinds of questions on a more site specific basis.
    Senator Crapo. Thank you.
    Another one for you, Mr. Rey. There is a lot of debate 
right now over the environmental effects of logging after a 
fire. Could you please speak to this argument or this issue, 
but particularly I am looking at the comparison of the 
potential negative effects that some have identified versus the 
negative effects of taking no action at all.
    Mr. Rey. We will submit for the record a synthesis of the 
existing research on that question that was produced by the 
Forest Service's research establishment. But I think that the 
short answer is that in many cases, not all, but in many cases, 
active recovery can restore a forest system faster than 
allowing nature to take its course, and that we do know enough 
in many cases to apply that knowledge to assist that recovery 
taking place.
    That is quite apart from whether it makes sense to get some 
value from trees that have already been killed by a fire or a 
natural catastrophe. Putting that question aside, the simple 
issue of does active management assist more rapid recovery, the 
answer is yes in many instances, but not all, and the important 
thing is to look at the site specific circumstances to decide 
whether this is an issue, an area where that will happen.
    Now, bringing in the question of should we put to use trees 
that have been killed by some natural catastrophe, a fire or an 
insect epidemic, it seems to me that that is the essence of 
conservation, because the alternative is to simply allow the 
material to go to waste, and I do not think that is a very 
conservationist point of view.
    Senator Crapo. I just have one last question and I would 
encourage each of you to respond. Critics have claimed that 
this legislation lifts the Endangered Species Act and NEPA 
protections in order to speed up logging after a natural 
disaster. Does the legislation do that? Does this legislation 
require logging? Or, well, just could you respond to those 
criticisms?
    Ms. Scarlett. Mr. Chairman, the act specifically addresses 
ESA provisions as well as NEPA provisions. In the pre-approved 
management elements that the secretaries of the respective 
agencies would put forth, there are public comment 
opportunities that are deemed in the act to be consistent with 
meeting NEPA requirements. With respect to the Endangered 
Species Act also, the act specifically sets forth that the 
activities would conform to the existing requirements under ESA 
for emergency actions. So I would suggest that the act is fully 
consistent with our fulfilling those responsibilities as well 
as our forest health responsibilities.
    Mr. Rey. In fact, the provisions of the act dealing with 
NEPA are virtually identical to the provisions in the Healthy 
Forest Restoration Act. And those same charges were levied 3 
years ago when this committee was considering the Healthy 
Forest Restoration Act. Indeed, it was asserted that if the 
committee enacted the Healthy Forest Restoration Act the world 
as we know it would come to an end and the sky would certainly 
be on the ground, and none of that has happened in the ensuing 
3 years.
    Senator Crapo. Thank you very much.
    I will turn next to our ranking member, Senator Blanche 
Lincoln. Blanche, thank you and welcome here today.

   STATEMENT OF HON. BLANCHE L. LINCOLN, A U.S. SENATOR FROM 
                            ARKANSAS

    Senator Lincoln. Thank you, Mr. Chairman. It is certainly a 
pleasure to be here with you again this morning to take up 
another issue that falls under our jurisdiction in the 
subcommittee. As always, I very much appreciate the chairman's 
strong leadership in this committee. He does a tremendous job 
in making sure that we are paying attention to the things that 
we need to, and I think holding this hearing today is evidence 
of that.
    Before I have any brief remarks, I also want to thank the 
panelists for their participation. I am particularly pleased to 
have before the subcommittee today Mr. Jim Crouch of 
Russellville, Arkansas. Jim is a tremendous help to me and my 
staff on forestry issues, with many years of experience in the 
field, and we are very proud to have his testimony here today 
and I look forward to him sharing with the subcommittee on the 
next panel.
    I would also like to take this opportunity to publicly 
thank Under Secretary Mark Rey. He has on more than one 
occasion taken the time to sit down with me and my staff to 
answer some of our questions and to listen to what our views 
and concerns are, and I just want to say how much I very much 
appreciate the generosity of your time and your attention when 
we have these issues before us, and we look forward to working 
with you on this.
    As many of you know, I have worked closely with Senator 
Crapo and certainly others in the committee to craft the 
bipartisan Healthy Forest Restoration Act several years ago. In 
my view, the Healthy Forest Restoration Act takes necessary 
steps to ensure that we can address the many problems that are 
affecting our Nation's forests, both on public and private 
forest lands, in the Southeast, the southern areas, the western 
forests, and throughout both the hardwood and the pine 
ecosystems.
    I do firmly believe that if we value our forests, and I 
certainly do--I grew up with one of the smallest and yet one of 
the probably premier hardwood natural forests, national 
forests, in my back yard, in the middle of the Arkansas Delta. 
But if we can conserve our woodland resources, if we can 
preserve their natural beauty, and if we want to ensure that 
the natural bounty of our forest land is available for future 
generations, then it is important that we actively manage those 
lands and those resources with a very careful eye toward their 
long-term health.
    With that national forest in my back yard growing up, I 
never will forget looking at the age and the quality of those 
hardwoods and then being told by my father that 100 years ago 
it had just been pasture land. So without a doubt the 
management of forests and taking an eye to that is critically 
important.
    We are here today to discuss a bill that provides new tools 
for our forest managers to more swiftly salvage timber and 
conduct reforestation activities in our national forests 
following some catastrophic events, events such as the 
wildfires that are currently wreaking havoc in so many of our 
western States. But also there are tornadoes, there are ice 
storms, there is insect infestation that commonly plagues 
eastern forests in States like my home State in Arkansas.
    I understand that we are going to hear a diversity of 
viewpoints on this bill from our panelists this morning and I 
certainly appreciate that. I think we all believe that that is 
tremendously helpful to us in coming about and bringing to the 
table the right combinations of solutions and ideas that we 
need to make our forest across this great land the best that it 
can be.
    So I look forward to the testimony. I have got just a few 
questions, Mr. Chairman, and I will pass it over to others here 
today.
    Secretary Rey, are the savings from what we are talking 
about here in our Forest Emergency Recovery and Research Act 
adequate to cover the treatment of the additional acreage that 
would have been left to nature to heal, I guess I am looking at 
the resources that we really need. I know that you had 
mentioned earlier that letting those things waste is not in the 
best interest of conservation. But do we have the resources 
there? And if not, where will the money come from?
    I have got some concerns that the bill would allow the 
limited resources for active forest management, particularly on 
our eastern forests, to be diverted to post-fire salvage 
projects in western forests. Obviously, the forests are so much 
larger out West than what we have. We may not have the volume, 
but we do feel like we have the important task in the East of 
preserving the forests that we do have.
    Mr. Rey. I think the bill will have the effect of reducing 
significantly the costs of post-catastrophic recovery projects 
and that will allow us to do more as we approach these 
catastrophes, wherever they occur. I think one of the benefits 
of the bill is the geographically evenhanded way it addresses 
forest and rangeland catastrophes, with a particular emphasis 
on insect and disease epidemics, which are becoming more and 
more a problem in the East, particularly now in the Midwest, 
with invasive species like the emerald ash borer and the Asian 
longhorn beetle.
    So I think there is a real opportunity in this bill to get 
a lot more done than we are currently doing in responding to 
those kinds of epidemics, as well as responding to wildfires.
    Senator Lincoln. Are there any real specifics that you have 
in terms of how it would reduce the cost?
    Mr. Rey. I would say, based on our experience with the 
Healthy Forest Restoration Act and using the somewhat similar 
tools that that has provided, on larger projects we are seeing 
cost reductions of about 30 to 40 percent.
    Senator Lincoln. Would either of you like to comment or 
give us some ideas of what would be included in a set of pre-
approved management practices and how you might arrive at those 
practices? You have talked about how they would be beneficial 
and how they would be consistent with what already exists in 
terms of management practices.
    Mr. Rey. I think the way that we would arrive at those 
practices is pretty clearly specified in the bill, in that it 
requires a notice and comment rulemaking as well as a peer 
review for scientific integrity. What I think you will see in 
those lists of management practices is practices associated 
with specific kinds of catastrophes in individual forest types. 
So you will not necessarily see the same list of practices for 
dealing with a southern pine beetle epidemic in Arkansas as you 
would necessarily seeing--as you would with a wildfire recovery 
in central Idaho.
    So they will be fairly--I think they will be fairly 
specific to the forest and rangeland type involved.
    Ms. Scarlett. If I could just add one element to that, the 
act specifically sets forth that we would undertake these 
recovery and restoration activities pursuant to the existing 
land use plans and the land use planning objectives that we 
already have set forth. So the management tools selected would 
be those most germane to achieving those on-the-land healthy 
outcomes that are set forth in our land use plan.
    Senator Lincoln. So more complementary of what already 
exists, as well as specific, because the specifics is important 
to me, as you know, in the case of the insect infestation like 
we saw with the red oak borer in Arkansas. So that would be 
critical.
    Thank you, Mr. Chairman.
    Senator Crapo. Thank you very much. I want to also say how 
much a pleasure it is to work with you, Blanche. We always talk 
about our history, but we seem to sit on the same committees 
and we seem to like each other and get things done on a 
bipartisan basis. So it is good to work with you.
    Senator Salazar.

  STATEMENT OF HON. KEN SALAZAR, A U.S. SENATOR FROM COLORADO

    Senator Salazar. Thank you very much, Senator Crapo and 
Senator Lincoln, for holding this hearing, and thank you to 
Mark Rey and to Lynn Scarlett also for being here this morning.
    Let me say that, with respect to House of Representatives 
Bill 4200, the Forest Emergency Recovery and Research Act, I am 
open to looking at how we can do things better on the ground 
after we have a catastrophe and we are responding to how we 
best recover from it and how we clean it up. If there are ways 
by which we can improve by changing the law, we certainly ought 
to be open to them, and I appreciate the initiative of you 
coming forward with ideas that need to be reviewed.
    I wanted to go back, though, to an issue that is very near 
and dear to my heart, that both of you have heard me talk 
about. That is what we are doing under the current authorities 
and the current funding streams with respect to the beetle 
infestation that we see in many places around the country, and 
here specifically for me in Colorado, where the 1.5 million 
acres that you referred to, Under Secretary Rey, are something 
that I see and hear about every day and something that concerns 
me.
    When I look at what might happen yet this summer, this 
fall, or in the next year, I can see hundreds of thousands of 
acres of our national forests going ablaze and continuing to 
see the spread of the bark beetle throughout the western part 
of Colorado. About 2 weeks ago someone reported to us that they 
had seen the first of the bark beetles flying throughout the 
forest. Well, those bark beetles are now searching out their 
new habitats and soon we will see some of those large acreages 
that are now green start becoming red and part of the forest 
dying.
    My question to you, which is one that I am going to 
continue harping on, is why are we not providing the funding 
that is needed for us to be able to do the treatment with 
respect to many of these acres of land that have already been 
approved by the NEPA process? I think that we have had about 
280,000 acres of treatments that have already been NEPA-
approved. We have another 235,000 acres in the pipeline that 
have been NEPA-approved. But it seems like it is the funding 
problem that is keeping us from addressing the treatment of 
those acreages.
    So I would like you to respond to that if you could, Mr. 
Rey.
    Mr. Rey. We have some acres that are NEPA-approved, that 
are still awaiting funding. But I do not think, with all due 
respect, that that is the major impediment to proceeding on 
some of this recovery work. I think the major impediment to 
proceeding with some of it is the unit costs associated with 
getting the NEPA work done and getting the other analytical 
work done is consuming a substantial amount of resources. Bills 
like H.R. 4200 give us a real opportunity to reduce those costs 
and to, by reducing those costs, transfer more money into 
getting that work actually applied and finished on the ground.
    This is a budget environment which is very challenging, but 
the fact is that our fiscal year 2007 request for this kind of 
on-the-ground work is the largest budget request that any 
President has made of any Congress since the previous one we 
made, which was itself a record, and the one before that, which 
is a record.
    So we are devoting a substantial amount of money to this 
work as a Presidential priority. But we are still spending in 
some areas--and the Colorado Front Range is not our highest 
cost area, but it is a pretty high-cost area. But in our 
highest cost areas we are spending upwards of $3,000 an acre to 
get this work done. At that rate, there is never--there is no 
prospect for us ever to get ahead of things like pandemics of 
bark beetles. We have to reduce that rate substantially in some 
cases, not so much in Colorado, but substantially in other 
areas, before we are going to get ahead of this problem. This 
bill does that.
    Ms. Scarlett. Senator, I would like to, if I could, just 
add one thing. Of the 400,000-plus acres in northern Colorado 
infested by the beetle, about 10 percent of those are BLM 
lands, and I am pleased to say that what we have done is to 
shift money at the Washington office level to Colorado to 
supplement what would have been the Colorado State office 
funding to address those issues. So we are putting resources 
into Colorado, recognizing that challenge.
    Mr. Rey. As are we, but again it is a very big problem.
    Senator Salazar. I appreciate that.
    Will we have another round with these two witnesses?
    Senator Crapo. We certainly can.
    Senator Salazar. Let me just make a comment on this and I 
have some other questions that I want to ask. While it seems to 
me that there may be changes in the law that can be made, Mr. 
Rey, to expedite what we are trying to do with respect to 
dealing with these infestations and these fire emergencies that 
we see throughout the West. The fact of the matter is that I 
think money is still a huge problem. I think when you look at 
the fact that in Colorado you have 283,000 acres that are ready 
to be treated, if we look at the average of the last several 
years we are going to treat 50 to 80,000 acres in Colorado. 
That is a huge gap. That is almost 200,000 acres that are not 
being treated.
    I think we just need to be straightforward and direct with 
the people and communities who are affected, and that is that 
there is not the resources available to go and treat these vast 
swaths of bark beetle-infected forests in our State, and that 
really necessitates, it seems to me, two things. One, we need 
to have the money in order to be able to deal with the problem. 
We just need to say that that is a reality. Second, if there 
are changes that we need to make in the law, some of which you 
might have suggested here, we ought to look at those if we can 
do this thing in a less expensive way.
    But I do not think we can escape the reality here that one 
of our major problems is that we just do not have the money to 
be able to go out and deal with these huge swaths of 
infestation that we see throughout the West. When we talk about 
1.5 million acres in Colorado that have been infested by the 
bark beetle and we know how bark beetle is spreading throughout 
those western States, we have a catastrophe on our hands and we 
need to be smart about it, both in terms of the money that we 
put behind it as well as creating the kind of legal framework 
that will help us address the issue.
    Mr. Rey. I think we are in agreement on both counts.
    Senator Crapo. Thank you.
    Senator Coleman.

 STATEMENT OF HON. NORM COLEMAN, A U.S. SENATOR FROM MINNESOTA

    Senator Coleman. Thank you, Mr. Chairman, and I thank both 
you and the ranking member for holding this important 
subcommittee hearing on the Forest Emergency Recovery and 
Research Act. I will note that I have to preside over the 
Senate at 10 o'clock. I am going to miss the third panel, where 
we are going to have St. Louis County Commissioner, Land 
Commissioner, Robert Krepps, here. So I apologize for that, but 
duty will beckon.
    I have a fuller written statement, Mr. Chairman, that I 
would like to have entered into the record.
    Senator Crapo. Without objection.
    Senator Coleman. And just if I can, just make a couple 
observations. I think quite often folks think about forest 
issues as a western issue, but you can see from this committee 
certainly it is a southern issue and it is a Minnesota issue. 
We have got two national forests that span 5.8 million acres 
across northern Minnesota.
    Consideration of this bill is particularly important and 
timely for me. We have got two wildfires right now that are 
currently burning. That is what those pictures are, in the 
Boundary Waters Canoe Area located in the Superior National 
Forest. These fires started in mid-July, have burned nearly 
34,000 acres. We have had some rain in the last couple of days, 
which has been helpful, but we are thinking that these fires 
could burn for the rest of the season.
    We had blowdown in 1999 that had straight-line winds in 
excess of 90 miles an hour, that caused severe flooding, 
damaged more than 600 square miles of Superior National Forest. 
In 2002 our forest mortality exceeded net growth and the spruce 
budworm infestations resulted in the death of one-third of the 
balsam fir in Minnesota.
    So we have got challenges, as we do around the rest of the 
country. I thought we made a start with Healthy Forest 
Restoration. I think this is now the next step and we have to 
get there. I am proud to be a co-author with Senator Smith on 
the Forests for Future Generations Act, I think under the next 
phase here. So these are all living systems. We have got to 
restore, we have got to manage and protect them. I think we 
share that commitment, and it affects broad areas of America.
    So I am pleased to be here at this hearing today. Mr. Rey, 
it is always a pleasure to have you in front of this committee. 
Ms. Scarlett, it is great to have you here.
    Just in reference to fires, could the two fires--it may be 
too hypothetical. Could these have been prevented or at least 
minimized if further recovery actions were taken following the 
1999 blowdown? That is one of the big complaints of folks back 
home, that we did not do recovery then and now we have this 
situation.
    I guess the second part of this would be, how are the fires 
affecting adjacent land that is not Federal land and is that an 
area of concern?
    Mr. Rey. I think the fires that you are experiencing now 
could have been minimized. I doubt that they could have been 
prevented. Some portion of the blowdown was in wilderness and 
we would not normally have treated that. We did go to CEQ to 
get alternative arrangements under the existing regulations to 
treat the areas that we did treat. As a consequence of the 
treatments that we did do, we were able to get the Cavity Lake 
Fire to lay down for us and we were able to protect the 
dwellings and the structures around the Gunflint Trail.
    I think the important thing is that, had H.R. 4200 existed 
when the blowdown occurred in 2000, we would not have had to go 
through the additional process of getting alternative 
arrangements from CEQ and the treatments that were done would 
likely--would certainly have been faster and would likely have 
been more extensive, given the authorities in this legislation.
    So I think it would have had a material effect on reducing 
the size and the intensity of these fires. But the Boundary 
Waters Area is not dissimilar to a lot of western forests. It 
is a fire-dominated system. In fact, some of the Forest 
Service's earliest research on the effect and periodicity of 
fire in forest systems was done in northern Minnesota by Myron 
Heinzelman, a Minnesotan who had a long research career with 
the Forest Service.
    Senator Coleman. If I can then follow up, FERRA requires 
thorough environmental review, which is critically important, 
full evaluation of environmental effects of catastrophe event 
recovery, a lot of important protections. It is a key component 
of this proposal that I support. The question I have is, could 
the legislation be implemented to protect the environment 
without slowing what is intended to be a speedy emergency 
forest mitigation process? Either witness.
    Ms. Scarlett. Senator, I think that is precisely what the 
bill does strive to do, by allowing us--with two components: 
first, a research component that allows us to better understand 
how we can achieve the land health outcomes that we are seeking 
and yet by doing that be able to implement those more 
expeditiously and more routinely. But second, I think the act 
in addition will allow us to get in there and undertake these 
actions, undertake them consistent with our environmental--our 
Endangered Species Act requirements, the National Environmental 
Policy Act requirements, water quality requirements.
    None of the provisions would absolve us from those 
responsibilities. They would rather allow us to address those 
responsibilities in an expedited fashion.
    Senator Coleman. Thank you, Mr. Chairman.
    Senator Crapo. Thank you very much.
    I have concluded my questions and so we will start a second 
round, if any of the rest of you would like to ask further 
questions.
    Senator Lincoln. Just one quick question. Are the 
provisions in 4200, H.R. 4200, are there any in there that 
would require the Forest Service or the BLM to leave certain 
legacy stands for habitat and ecosystem restoration?
    Ms. Scarlett. Yes, Senator, there are. Our land use plans 
actually already specify the retaining of legacy stands and so 
forth, and the act specifies that the actions we undertake in 
recovery and restoration would link to those requirements in 
the land use plans. There are additional provisions beyond that 
that specifically suggest if those land use plans do not have 
such provisions that we would give special attention to 
ensuring that such legacy stands remain as we develop the plans 
for restoration.
    Senator Lincoln. So if those specific requirements were not 
included in existing forest land use plans, you would still 
have to, is that correct?
    Ms. Scarlett. That is my understanding as I read the bill.
    Mr. Rey. Per the requirements of section 109 of the bill.
    Senator Lincoln. Thank you very much.
    Thanks, The Chairman.
    Senator Crapo. Senator Salazar.
    Senator Salazar. Thank you very much, Mr. Chairman.
    Let me ask you a question with respect to the site specific 
actions that you would take. I guess my question would be on 
pre-approved management practices, how specific will they be 
for the Forest Service and DOI in preparing them? Let me give 
you a specific example, the Hayman Fire in Colorado, 135 
million acres burned. If this bill were to become law and it 
were to be implemented by your agencies and you are looking at 
how you respond to an area like the Hayman Fire, those 135,000 
acres in those four counties, would there be an environmental 
analysis with respect to how you move forward to dealing with 
those 135,000 acres that would be specific to Hayman or would 
instead what you would do is to look at other forests that are 
in similar ecological zones and elevations and say, well, this 
is the program then that would apply to the Hayman Fire?
    Mr. Rey. I think the short answer is the bill would require 
both. We would develop pre-approved management practices for 
mid-elevation ponderosa pine systems, which is largely what 
burned in the Hayman fire, and then in the development of a 
catastrophic recovery project, per Title 1 of this legislation, 
there would be some more individual analysis associated with 
that particular instance.
    Senator Salazar. Spin that out for me just a little bit, 
Mark, in terms of what you would look at with respect to the 
site specific analysis?
    Mr. Rey. I think what you would look at in the individual 
project analysis is the size of the incident, the intensity of 
the fire over various parts of the incident, any specifics 
about the watershed. If there are threatened or endangered 
species in that particular locale, that would be part of the 
project level analysis as well, because that would not 
necessarily be covered in the development of the pre-approved 
management tools.
    Senator Salazar. What do you think the timeframe would be 
to come up with that plan once you have a catastrophe like 
Hayman?
    Mr. Rey. I think the bill requires that it be developed 
within 60 days and that would be our objective, to try and do 
it within 60 days.
    Senator Salazar. Do you think that is sufficient time to do 
the analysis to make sure that we are doing the right thing on 
the ground?
    Mr. Rey. I think so. I think one of the advantages you have 
here is you have already developed some of the preapproved 
management tools and then you are doing an individual analysis, 
which you can do more quickly, to evaluate how you would use 
those tools in a specific instance, what restrictions you would 
place on them and that sort of thing.
    So I think this has the prospect of cutting our turnaround 
time for one of these kinds of projects probably by about 
three-quarters.
    Senator Salazar. Ms. Scarlett, do you have any comment?
    Ms. Scarlett. I do not know that I can add to that. The 
idea I think of the act is that we would begin with the 
preapproved management arrangements or elements, having 
researched them, having known that they are effective applied 
to certain kinds of categories of circumstances, but then using 
that as a foundation off which we tier additional information 
at that site specific level.
    I think Mark is right, I think the timeframes set forth in 
the act would be sufficient to do that tiering down to the 
specific level at the site.
    Senator Salazar. Thank you very much.
    Mr. Rey, Under Secretary Rey, I want to ask you a question 
concerning the management of our forests in Colorado, and that 
is with respect to the Gunnison, the Uncompahgre, and the Mesa, 
the so-called GMUG forest plan. The plan had been put together 
for those three forests covers a time span of about 4 years, 
about 3 million acres involved in those 3 forests. We were 
supposed to see the plans published by USDA last week some time 
and my understanding is they were pulled from the shelf.
    It is a tremendous concern to me and to our community in 
Colorado as to why that happened, and I was hoping this morning 
that you could help me shed some light on that.
    Mr. Rey. Sure, I would be happy to give you a briefing on 
where we are at with that. First let me say that the forest 
supervisor, who you by the way stole from Senator Lincoln, 
Charles Richmond, who used to be the supervisor on the 
Ouachita, has done an outstanding job of involving local 
interests in the development of that plan. So there appears to 
be a substantial amount of local support for the plan. That is 
the good news.
    Now, the less good news is that as the plan came forward 
and we did the standard quality control review that we do on 
every draft plan before we put it out for public comment, we 
discovered a couple of problems. Problem one is the issue 
associated with what is required of us now to comply with the 
2005 Energy Policy Act, and in particular with regard to the 
GMUG we are obliged to do an assessment of compliant and super-
compliant coals and the availability of those resources as part 
of a land and resource management plan revision. It was not 
clear that that was done adequately, and this was one of the 
first plans with significant energy resources associated with 
it that has come forward since the enactment of the Energy 
Policy Act.
    That is a fairly minor problem. What the forests agreed to 
do is to supplement the record with an analysis of those 
resources and we do not think that will take more than a couple 
of weeks.
    The larger problem is a little more complex and will take a 
little longer to address. In our 2005 planning regulations we 
gave forests the opportunity to do plan revisions using a 
categorical exclusion from NEPA, provided that the decisions 
that they are making in those plan revisions fit within that 
categorical exclusion. They are allowed to do more and make 
more decisions in the plan, but if they do then they are going 
to engender a higher level of NEPA analysis as part of the 
obligation of revising the plan.
    As we looked at the plan, it appeared to us that it would 
not fit as it was written under that categorical exclusion. So 
we told the region and the forest, you have two options. You 
can either scale back some of the decisions that are being made 
if you want to avail yourself of that categorical exclusion and 
use the 2005 regulations; or if you want to do a more fulsome 
plan with a larger range of decisions, then you have to do 
either an environmental assessment or an environmental impact 
statement.
    Last night the forest responded to us and said they would 
prefer to use the 2005 regulations and to fit their plan 
squarely within the categorical exclusion for more detailed 
NEPA analysis that we have provided. In order to make those 
modifications, that is in order to comply with the National 
Environmental Policy Act, it is going to take them until about 
November 15 to make those changes.
    I am relatively certain that they will be able to get that 
done. When they do, the plan will then go out for public review 
and comment as it would in any other case.
    So two issues: one, compliance with the Energy Policy Act 
of 2005; and the second, compliance with the National 
Environmental Policy Act of 1969. In both cases I think they 
are on a path to make those changes so that they can be in 
compliance with both statutes and the public will have a plan 
to look at about mid-November.
    Senator Salazar. Mr. Chairman, I know my time is up, but 
could I just pursue this for just a couple more minutes?
    Mr. Rey, I appreciate the briefing and appreciate the fact 
that you are taking more time and we will have another plan for 
public review by the 15th of November. I would only say that, 
with respect to the GMUG plan, it is an incredibly important 
three set of forests for my State. It covers the area above 
Grand Junction up into the Gunnison and the Uncompahgre River 
Basin. When we think about 3 million acres of our national 
forest land, which we consider to be our crown jewel, I am 
concerned because of the fact that there was so much of an 
effort that was made in Colorado to make sure that the public 
support that you talked about at the beginning of your comments 
was in fact there, that you had the communities that were 
affected in these three forests saying this is a good plan that 
we have created together in collaboration with the Forest 
Service.
    Then it seemed like at the last minute before it was 
approved that the Forest Service decided, well, we are going to 
pull it off the table to address these issues. I can only tell 
you that I will be watching closely, as I am sure my 
constituents in Colorado will be watching closely, as you go 
through those revisions leading up to the November 15th 
publication of the plans.
    I think for all of us who sit on this subcommittee our 
forests are our crown jewels of our State and we need to make 
sure that we do not do things with these long-term management 
plans that are going to diminish the sustainability of the 
forests. When I think about a 15-year plan, I can think about a 
4 or 5-year timeframe, but when I think about 15 years that is 
a very, very long time. So we just have to make sure that we 
get it right.
    I look forward to staying in touch with your office and I 
ask you to stay in touch with us as you move forward with this 
issue.
    Mr. Rey. We would be happy to do that. For better or for 
worse, the GMUG has always been a pioneer. It was one of the 
first forest plans produced under the 1976 National Forest 
Management Act. It was appealed and later litigated and now it 
is one of the first forest plans being revised per the 2005 
planning regulations and in the aftermath of Congressional 
enactment of the Energy Policy Act.
    I have read some of the editorial coverage which seems to 
suggest that there is some conspiracy afoot. I can only make 
two observations on that score. One, if there was a conspiracy 
we probably would have waited to hatch it when the plan was 
going final, not when it was going to go out for public review, 
since obviously it is going to be transparent and everybody is 
going to have their shot at it. Second, as a personal insight, 
I have found that you can explain most instances of our 
sometimes confusing behavior by simple mistakes, without 
needing to find a conspiracy to explain it. So those would be 
my observations on that score.
    Senator Salazar. I look forward to staying in close touch 
with you on it. I will tell you that on the rumor mill there 
were meetings supposedly taking place over the weekend in high-
level offices in Colorado as Washington officials and Colorado 
Forest Service officials were making decisions about what kinds 
of revisions were going to be made, and that they were 
dramatically different from what had been proposed in the 
earlier version of the plan.
    So I think that the sooner that you make the statement that 
you made here today, that you have a plan to move forward, to 
look at these two issues, with a date certain of November 15 to 
come up with a new plan, it will help, maybe not eliminate, but 
it will help at least clarify what it is that the Forest 
Service is doing with the GMUG.
    Thank you very much. I have taken more than enough time on 
this issue and I appreciate your indulgence in letting me have 
this conversation. Thank you very much.
    Mr. Rey. Not to belabor that, but the forest supervisor is 
contacting the local communities today to explain his decision 
and how he wants to proceed to remedy the problems with the 
plan.
    Senator Salazar. Good move.
    Senator Crapo. Thank you very much, and I want to thank Mr. 
Rey and Ms. Scarlett, thank both of you for your attendance 
here and for your continued assistance to this subcommittee as 
we work on these critical issues.
    We will excuse the first panel now and call up the second 
panel. While the second panel is coming up, I will introduce 
them. Our second panel consists of: Alan Thompson, who is the--
I am going to say these names wrong--Ravalli County 
Commissioner from Montana; Sue Kupillas--and if I got your name 
wrong I apologize--who is with Communities for Healthy Forests; 
Jim Crouch with the Ouachita Timber Purchasers Group; and 
Charlie Ringo, an Oregon State Senator.
    Once again, I would like to welcome this panel here with us 
and thank you all for your preparation and for the information 
and wisdom that you are going to bring to our panel, to our 
committee today. We will go through the testimony of the panel 
in the order that I introduced you, which means we will start 
with you, Mr. Thompson. I would again remind each of you to try 
to remember to pay attention to the clock so we will have time 
for the Senators to ask questions and engage in some dialog.

   STATEMENT OF ALAN THOMPSON, COMMISSIONER, RAVALLI COUNTY, 
   MONTANA, ON BEHALF OF THE NATIONAL ASSOCIATION OF COUNTIES

    Mr. Thompson. Good morning, Mr. Crapo, and Ranking Member 
Lincoln, members of the subcommittee. Thank you for the 
opportunity and the honor of testifying before you this 
morning. My name is Alan Thompson. I am a County Commissioner 
from Ravalli County in western Montana. I am also proud to 
represent the Montana Association of Counties on the Public 
Lands Steering Committee of the National Association of 
Counties, and it is on NACO's behalf that I appear today.
    I would like to speak to you today about a series of tragic 
incidents in our valley. Almost exactly to this day 6 years 
ago, lightning strikes started 78 fires in our valley that 
ultimately consumed 307,000 acres of Federal land and 49,000 
acres of State and private lands. Landscapes, homes, and lives 
were destroyed in the summer of 2000 in our valley. That was 
the first tragedy and my written testimony records the 
statistics and facts of how it affected the Federal lands and 
the citizens in our county.
    What I would like to speak to you today is about the second 
tragedy. While State and private lands began immediately to 
clean up their properties and salvage dead and dying timber, 
the Federal lands sat in limbo. When the dust settled from the 
lawsuits and the negotiations, we were able to salvage 4 
percent of the 1.2 billion, with a ``b'', board-feet of timber 
that was destroyed in the fires of 2000 on the Federal lands.
    Our county leads the State of Montana in the building of 
log homes. Yet with all the dead trees that were standing in 
our forests, local companies have had to purchase house logs 
from other counties, States, and from Canada. Since the 
restoration work was not done promptly, in the ensuing years we 
have seen mudslides from unstable slopes that have closed a 
Federal highway, county roads, and devastated ranchers' lands. 
Trees that were not cut and utilized now endanger hikers, 
hunters, and recreational forest users. Many trees have blown 
over, exposing their roots and allowing the fragile soils to 
run off and impact our streams and the world-class fishery of 
the Bitterroot River.
    As late as the 1980's, we had sawmills in our valley and a 
vibrant economy. When Federal land management policy changed, 
our valley changed and we no longer had the mills, we no longer 
had the vibrant economy, we no longer had the good-paying jobs. 
We are told now to look to tourism to sustain our economy. Yet 
with the runoff from burnt lands silt has impacted our 
fisheries, specifically endangering the threatened bull trout 
and the west slope cutthroat. What was once beautiful mountain 
vistas is now scarred landscape that very few tourists are 
interested in experiencing.
    I am sure that many of you have seen this particular 
picture of the elk in the river. This is the Bitterroot River 
and the fires, back in the fires of 2000. Not only human lives 
are impacted, but also wildlife and fishery. The cost to fight 
the fires in our valley was $54 million and much of that 
expense could have been recovered if there had been a Federal 
policy that would have expedited the salvage while the timber 
had some value.
    I believe H.R. 4200 holds great promise to improve the 
response time and I encourage you to adopt a similar Senate 
version of this bill.
    Second, we in the county were disappointed when elected 
officials had no say-so in the settlement. Citizens in our 
county should be represented in any settlement that directly 
affects our lives. Elected officials should have been given 
standing to speak on their behalf.
    Finally, I believe there should be a policy that requires 
the posting of a bond when a lawsuit is filed. If the belief is 
so strong that something wrong has been done, then there should 
be the will to back the suit with more than just the cost of 
filing.
    I would like to invite members of the subcommittee to visit 
our county, see for yourselves the difference between the State 
lands that was burned and the Federal lands, the restoration 
work that has taken place in the ensuing years. You can see on 
the ground the difference, what that landscape looks like at 
this time.
    Again, thank you for listening. I appreciate your ongoing 
efforts and the opportunity to be here this morning.
    [The prepared statement of Mr. Thompson can be found on 
page 91 in the appendix.]
    Senator Crapo. Thank you very much, Mr. Thompson.
    Ms. Kupillas. Did I pronounce your name right?

STATEMENT OF SUE KUPILLAS, EXECUTIVE DIRECTOR, COMMUNITIES FOR 
                        HEALTHY FORESTS

    Ms. Kupillas. ``Kue-PILL-us.''
    Senator Crapo. ``Kue-PILL-us,'' thank you. You may begin.
    Ms. Kupillas. Good morning, Chairman Crapo and Senator 
Lincoln and Senator Salazar. My name is Sue Kupillas. I am 
Executive Director for a nonprofit organization, Communities 
for Healthy Forests, based in Roseburg, Oregon. Communities for 
Healthy Forests' mission is to realize the prompt restoration 
and recovery of the conifer forests in the aftermath of fire 
and other catastrophic events, ensuring the presence and 
vitality of forest lands for future generations.
    We are an organization of community members, liberal and 
conservative, Republican and Democrat, who have come together 
around the common interests of the need to restore forests that 
have been devastated by catastrophic events. CHF was founded 
because this group of community leaders recognizes there are 
serious impediments to restoring forests in a timely manner.
    Communities for Healthy Forests is proud to support the 
Forest Emergency Recovery and Research Act because the key 
principle underlying FERRA is the need to move quickly to 
restore forests, key watersheds, and wildlife habitats. Under 
current Federal law the Forest Service and the Bureau of Land 
Management face an almost insurmountable amount of analysis, 
red tape, and bureaucratic steps following a catastrophic 
event. While Federal forests suffer crippling delay in the 
process, tribal, State, and private forest land managers move 
forward with recovery and reforestation projects much sooner 
following these catastrophic events.
    One of the best examples of successful forest restoration 
can be found in my home State of Oregon. Beginning in 1933, a 
series of four catastrophic wildfires burned over 350,000 acres 
of forest land now known as the Tillamook Burn. The people of 
the State of Oregon approved a measure to initiate a massive 
restoration effort to recover economic value from the burned 
timber, protect watersheds from erosion, and reforest the 
barrel landscape by seeding and planting young seedlings.
    As a result of these efforts, what was formerly known as 
the Tillamook Burn became the Tillamook State Forest. Since 
then the forest has returned over $2 billion in the form of 
revenue for county governments and needed rural jobs and 
schools. Most importantly, the forest now provides immeasurable 
benefits in terms of fish and wildlife habitat, clean water and 
open spaces for the enjoyment of Oregonians and people all over 
the world.
    Today's vibrant Tillamook Forest is a testament to the 
benefits of taking swift action to successfully restore and 
rehabilitate a forest ravaged by catastrophic wildfire. The 
values of this forest--the values this forest provides are now 
cherished by many, so much so that environmental activists 
recently ran an unsuccessful ballot measure to restrict forest 
management activities on half the forest.
    Mr. Chairman, this is just one example, and there are many 
others included in my testimony that serve as real-world proof 
of the benefits of taking swift action following catastrophic 
events.
    The need for legislation hits close to home for me. Right 
in my back yard is the 2002 Biscuit Fire, which burned almost 
500,000 acres. While approximately 178,000 acres are 
Congressionally withdrawn as wilderness and not appropriate for 
recovery, almost 322,000 acres were in need of restoration 
activities. Of this amount, 312,000 acres remain untreated 
today due to the effects of delays, appeals, and litigation. 
After almost 4 years, less than 3 percent of the total Biscuit 
Fire area has been restored in any way. Federal courts have 
ultimately dismissed all lawsuits on the Biscuit. However, 
after almost 4 years much of the value of the dead trees is 
lost, so there is little incentive or money to undertake 
further restoration activities.
    These posters are aerial shots of the Biscuit Fire from a 
helicopter trip I took last September. Just 2 weeks ago coming 
back from a raft trip, I drove through the Biscuit Fire area 
and it looks much the same--miles and miles of dead standing 
timber.
    Another vivid picture can be witnessed at Mount St. 
Helen's, which I visited in June of this year, where private 
lands were restored and Federal lands were not. Weyerhauser's 
private industrial land was salvaged and replanted following 
the 1980 eruption and harvesting and thinning of those trees is 
now taking place. Federal land is still a moonscape with a few 
flowering bushes.
    While we have practical experience in reforestation and 
some research, we still need further research to continue to 
improve our success with restoration. FERRA has a research 
component that will do just that by providing guaranteed 
funding for ongoing research and monitoring from proceeds from 
harvesting this valuable resource. The restoration of forests 
issue should not be controversial. Oregonians understand and 
support restoration, as shown by two polls completed in Oregon 
in 2005. 76 percent of the people believe forests should be 
restored, including clearing dead trees and replanting 
seedlings.
    While CHF supports FERRA and believes that it is a good 
piece of legislation, today's hearing in the Senate provides an 
opportunity to begin incorporating provisions from other 
legislative proposals that have been introduced in this body 
dealing with forest restoration.
    I would like to thank Chairman Mike Crapo and members of 
the Subcommittee on Forestry, Conservation, and Rural 
Revitalization for holding this important hearing and starting 
these discussions on this critical issue. I believe you have a 
unique opportunity to build upon FERRA by developing and 
passing bipartisan common sense legislation here in the 109th 
Congress.
    I appreciate this opportunity to testify and would answer 
any questions you have.
    [The prepared statement of Mr. Kupillas can be found on 
page 70 in the appendix.]
    Senator Crapo. Thank you very much, Ms. Kupillas.
    Mr. Crouch.

 STATEMENT OF JIM CROUCH, EXECUTIVE DIRECTOR, OUACHITA TIMBER 
            PURCHASERS GROUP, RUSSELLVILLE, ARKANSAS

    Mr. Crouch. Thank you, Mr. Chairman, Senator Lincoln, 
Senator Salazar. I appreciate the opportunity to be here today. 
My testimony is on behalf of the Ouachita Timber Purchasers 
Group, the Ozark-St. Francis Renewable Resource Council, and 
the Lake States Federal Timber Purchasers Committee. These 
folks buy wood from the national forests to feed their mills. 
Their operations range in size from mom and pop to global 
operations with thousands of employees.
    Today national forest managers are faced with almost 
insurmountable challenges from unhealthy forests, catastrophic 
events, a hostile stakeholder minority that opposes active 
forest management, and budgets that are woefully inadequate. 
FERRA will help break this gridlock for catastrophic events.
    The spectacular forest fires and insect and disease 
outbreaks that we see on the evening news are symptoms of 
deeper underlying problems in the forests. These events are 
rooted in the near-custodial management that the agency has 
practiced in recent decades. Without aggressive active 
management, nature ultimately harvests the forests. I strongly 
support active management as the first critical step in 
achieving health forests.
    Let me share with you an example of what happens when the 
agency relies on custodial management. You know the typical 
sequence. Over several decades, the forests become too dense, 
trees become too old, and during an extended drought period the 
bugs multiply rapidly and destroy the forest or either fire 
burns it.
    In the Ozark Mountains of Arkansas and Missouri, the red 
oak borer, a one inch long beetle, has destroyed more than $1 
billion worth of red oak since 1999. These borers have actually 
killed 50 million trees on 300,000 acres of the Ozark National 
Forest. Gone are the magnificent oak forests that provided an 
abundance of oak lumber, crossties, and pallets, along with 
huge acorn crops that fed bear, deer, turkey, and squirrels. 
Thousands of tons of hardwood fuel remains to feed the 
catastrophic fires of tomorrow. The scary thing about this 
situation is it is not just a problem in Arkansas; it is a 
problem in most States with national forests.
    In a move to improve forest health and reduce the impacts 
from catastrophic events, Congress passed the Healthy Forest 
Restoration Act and the administration launched the Healthy 
Forest Initiative. Most people support these efforts, but a 
handful of folks who are opposed to active forest management 
continue to appeal and litigate the agency's decisions. The 
delays usually mean the usable wood will ruin and recovery 
plans will stall. Sadly, since 2003 when HFRA was signed into 
law the Federal Government has accomplished only a little over 
77,000 acres out of the 20 million acres that they were 
authorized.
    Here is an example of what happens without FERRA. The 
Missionary Ridge Fire in southern Colorado burned about 70,000 
acres. The Forest Service spent a year and thousands of dollars 
doing an EIS to salvage 3 percent of the burned area. They were 
stopped in court over surveys for the Abert squirrel 
population. The Abert squirrel is a game species that is 
routinely hunted by hunters in Colorado. Due to the length and 
time required to prepare the bulletproof EIS and the delay 
caused by appeals and litigation, the timber became basically 
worthless and the project was abandoned. The snags and downed 
timber was left for the next fire to burn.
    In the Lake States and the South, where private, State, and 
national forests are intermingled, we support the FERRA Title 2 
language that encourages the Forest Service, communities, and 
the State foresters to cooperatively develop landscape 
assessments and to work together on recovery projects.
    I have several suggestions that I believe could improve 
FERRA. The first one is I believe the term ``burned area 
emergency response'' needs change to ``area emergency 
response.'' The definition of ``catastrophic events'' includes 
not only fires, but insects and disease, storms and so forth.
    I believe the requirement in section 101 for peer reviewed 
research protocols is probably an overkill. I support the use 
of effectiveness monitoring and adaptive management. One must 
remember the Forest Service restored lands nobody wanted to the 
condition that groups hammer on your doors asking you to 
designate old cotton fields in the South as virgin wilderness.
    In closing, I urge you to pass FERRA with the changes as 
soon as possible and I would appreciate it if you would put 
both the written and oral testimony in the record, and I would 
be glad to answer any questions at the appropriate time. Thank 
you.
    [The prepared statement of Mr. Crouch can be found on page 
48 in the appendix.]
    Senator Lincoln [presiding]. Thank you, Mr. Crouch. 
Certainly your written and oral testimony from all of you will 
be included in the record.
    The chairman excused himself for a few moments, so, Mr. 
Ringo, if you will proceed, we will get to questioning.

 STATEMENT OF CHARLIE RINGO, OREGON STATE SENATOR, BEAVERTON, 
                             OREGON

    Mr. Ringo. Thank you very much. My name is Charlie Ringo. I 
am a State Senator from Oregon. I represent the Portland, 
Washington County area. It is a pleasure to be here this 
morning, and I am going to strike a little bit of a different 
note from the testimony you have heard so far.
    About a month ago I had the pleasure of loading my kids in 
the car and driving to Yellowstone National Park, and we got 
there and we looked at the geysers and we looked at the buffalo 
and we looked at the forest that had burned in 1988. There are 
signs along the road in Yellowstone indicating where the great 
conflagration had occurred. If you will remember, at the time 
there were pictures similar to these you have seen today with 
just amazing sheets of flames going up to the sky and the 
devastation that looked like this. At the time a number of 
scientists said: Look at this, this is devastated for 
centuries; we have done this to our national park.
    Now you go there--1988, not too long ago--and you see the 
that trees are already recovering and it is very good habitat 
and the ecology is rebounding, without any active management, 
without any recovery efforts, without any rehabilitation plans. 
The point is that all this testimony we have heard saying it is 
absolutely necessary--it may be necessary in some cases, but it 
certainly is not necessary in a lot of cases. We have to look 
very carefully at the science to see what does the best science 
say as to when active management is or is not called for. It is 
not automatically called for. It certainly was not necessary in 
Yellowstone National Park.
    Now, I want to acknowledge that there is another important 
objective in this bill besides forest recovery and that is 
getting the benefit, the economic benefit out of the forest--
money for timber communities, jobs. Those are important 
objectives and we have got to put that right on the table and 
say that is something we have got to consider. You just cannot 
ignore that.
    But the other objective that is often set forth is this is 
absolutely essential for forest recovery and for forest health. 
Essentially it is saying you have got to cut the forest in 
order to save the forest. I suggest to you that that is not 
supported by the science.
    Now, I have some exhibits that I would like to make 
available to the committee members and talk a little bit about, 
well, what is the best science concerning forest recovery. In 
Oregon we have got Oregon State University. I grew up in that 
college town of Cravallis. I am very fond of OSU. We had the 
scandal earlier this year where there was a paper that was 
accepted for publication in Science magazine by several grad 
students. The lead author was Daniel Donato. The Donato paper 
says that post-fire logging may impair the natural regeneration 
of the forest. It is just one study. You need to look at it in 
the context of lots of other studies and the entire body of 
science. But that was a study nonetheless that would not 
support this bill, at least the objective of this bill of 
recovering forests.
    The reaction by the leadership of the College of Forestry 
was very instructive. Rather than giving a claim to these grad 
students for such an achievement of being published in a 
prestigious journal, the leadership of OSU College of Forestry 
attempted to interfere with its publication because it was not 
convenient for the timber industry that helps fund the college 
and because it might pose a threat to the legislation that is 
on the table today.
    Now, I obtained a number of emails from the College of 
Forestry leadership that--the first one, the one that is right 
on top, Senator, is from an Oregon State University vice 
president to Dean Hal Salwasser, saying: ``Heads up. This issue 
is coming. I am sure you will hear from your industry partners 
and any nemesis we have in sustainability,'' essentially 
imposing a judgment value of opposition to sustainability.
    I do not want to go through all of these emails, but it 
shows a very close coordination with industry representatives 
and with government officials to put the right spin on this so 
that it would not have an inconvenient impact for this 
legislation.
    So where does that leave us? As a State Senator in Oregon, 
I am a policymaker. You are policymakers. We have got to look 
at our objectives. As I said earlier, one of the objectives 
certainly is getting the economic benefit out of the forest.
    The other objective that is often talked about is the, we 
have got to do this for forest recovery. I suggest to you that 
that is not supported by the science. There is some suggestion 
that that is accomplished. There is many scientific 
publications that say otherwise.
    I want to just mention one thing. There are some examples 
given and Ms. Kupillas referenced the Tillamook State Forest as 
a wonderful example of active management, now we are enjoying 
the benefits today. The Tillamook State Forest is a jewel in 
Oregon. It is 350, 400,000 acres. Unfortunately, it has got 
Swiss needle cast because it was replanted incorrectly. The 
seedlings used were actually not from the Coast Range, and I 
could go into a lot more detail about that.
    The upshot and I guess the final message that I want to 
leave with the committee is that the objective of recovering 
our forests for ecological purposes must be science-based. It 
must be science-based, and the science that is behind this bill 
in that regard I believe is not credible and you have got to 
look at it a lot closer.
    Thank you very much and I would be interested in answering 
any questions.
    Senator Crapo [presiding]. Thank you very much.
    We will proceed with the questions at this point. My first 
question, Ms. Kupillas, is to you. You indicated that in the 
litigation that you referred to in your testimony, that 
virtually all of the litigation was ultimately dismissed by the 
Federal courts; is that correct?
    Ms. Kupillas. That is correct, and that is on the Biscuit 
Fire.
    Senator Crapo. On the Biscuit Fire.
    Ms. Kupillas. Right.
    Senator Crapo. But the litigation took approximately 4 
years and during that time the value of the wood on the forest 
was degraded?
    Ms. Kupillas. I believe it was around 3 years, but yes, 
there was significant degradation of the wood out there over a 
3-year period.
    Senator Crapo. Mr. Thompson, you compared post-fire 
situations on State and private forests versus the national 
forest land. I would like to tell you, I had a similar 
experience as I first began learning more and more about 
forests as I served on this committee and served in the Senate 
and the House. I had an occasion once when we were doing a tour 
of one of the forests in Idaho and touring a forest fire. The 
fire burned right up to a certain line and then stopped 
burning.
    As we flew in the helicopter over that line, there was a 
road there. I mentioned to the foresters that were with me, I 
said: I did not realize that one road would stop a fire of that 
size. They said: Oh, it was not the road that stopped the fire; 
that road is the boundary line and the forest on the other side 
of the road is State land, or it was either State or private 
land, and it was managed differently and it did not--the fire 
was not able to continue burning because the forest was in a 
better condition.
    So I have observed that myself.
    Could you compare the difference between the approaches 
that we are talking about here on State and private land versus 
Federal land management and what we need to seek to achieve at 
the Federal level that we are not able to achieve at this 
point?
    Mr. Thompson. The Sula State Forest exists in Ravalli 
County. As you know, that is State trust land, and because of 
the fires that came through in 2000 that land burned the same 
as the Federal land. The fire did not stop at that boundary. As 
you know, oftentimes fires create their own intensity, their 
own winds, and so forth. So it came through and burned that 
land also.
    Immediately, State foresters came in, did a quick 
environmental assessment on the damage that had been done, and 
in the winter of 2000-2001, January and February, they were 
able to harvest 60 million board-feet of timber off of that 
land over the snow. No degradation of any property took place 
at that time. The difference, at this time there is a stark 
difference between what transpired. They were able to plant 
vegetation, plant trees, put straw wattles in to stop the silt 
from coming into our fisheries, stop some mudslides, etcetera. 
Federal land did not.
    Vast difference in the way that they look at the moment. 
Mr. Ringo's comment saying that the science does not show that 
FERRA would be beneficial, I would dispute that by saying come 
out, walk the ground, look at the difference of getting in 
immediately, harvesting, salvaging the dead and dying timber, 
doing the restoration work that needs to be done, versus 
letting it set, go through the court process, and what Ms. 
Kupillas has talked about is exactly what happened in our 
county. After all the lawsuits were finally done, we were able 
to go in and do some work. Now all of that timber can possibly 
be used for firewood.
    Senator Crapo. Thank you.
    Mr. Ringo, I agree with you that our forest management 
should be based on good sound science. Is it your testimony 
that the weight of the science in this case is against the kind 
of forest management that is contemplated in this legislation?
    Mr. Ringo. Senator Crapo, I believe that the weight of the 
science indicates that post-fire logging operations will often 
inhibit natural regeneration. One of the earlier witnesses said 
you do need to look at it on a case by case basis and I think 
that is right.
    One of the things I mentioned--I think you had stepped out 
of the room--was I drove across the upper part of your State to 
go to Yellowstone Park this summer and we saw the regeneration 
that has occurred in Yellowstone without any active management 
at all. I think it is a remarkable example of natural recovery. 
It is not always going to happen, but I think you have got to 
look at the science very carefully, and there is a large body 
of science that does indicate that natural regeneration is 
actually preferable and will yield better results than active 
management.
    Senator Crapo. Mr. Rey in his testimony, I think he is the 
one you may have referred to who earlier said that there are 
some cases where active management is not the right technique. 
If I am reporting his testimony or paraphrasing it correctly, 
he said there are many cases where it is. Do you agree with 
that or are you saying that in all cases active management is 
not appropriate?
    Mr. Ringo. No, I would not say that. And I would also 
acknowledge that there is other objectives. I do think it is an 
important objective to consider the economic benefit of quick 
action. You cannot ignore the impact on the local treatment 
communities and on jobs. You just cannot say those are not 
relevant. Clearly they are.
    My message to the committee, though, is that I believe the 
public wants balanced management, and that is part of the 
management. The other part that needs to be considered is what 
is the real environmental impact, what is the real ecological 
impact, and what does the science say about that.
    Senator Crapo. Thank you.
    Mr. Crouch, could you comment on the same general set of 
issues? What does the science say in your opinion? Where is the 
weight of the evidence here, if you will?
    Mr. Crouch. Yes, sir. You know, the thing that comes to my 
mind as I sat and listened, there is an awful lot of 
commonality among what is being said and yet there is an awful 
lot of difference when we finally see the actions that 
different interests take.
    I would suggest to you that the Forest Service has a 
tremendous amount of science behind its decisions. I would 
suggest to you that the Forest Service research is as good as 
there is probably in the world when it comes to forestry. So we 
need to be very careful that we do not kind of conclude that 
maybe these activities that you see going on the ground or 
these activities that are laid out in the land management 
plans, the standards and the guides and so forth--they are 
based on an awful lot of science, and I guess I would leave it 
at that.
    Senator Crapo. Thank you.
    Senator Lincoln. Thank you, Mr. Chairman.
    Mr. Crouch, thanks again for being here, taking time to be 
with us here today. In your prepared statement you had said 
that additional funding may be needed to implement the recovery 
plans. Maybe you might explain a little bit of that or go a 
little further to let us know if you see existing funding 
mechanisms as provided in the FERRA bill as a problem for 
active management of forests that have not experienced as 
frequent catastrophic events?
    Again, in the South we do not necessarily have the volume 
of forest fires and other. We do have tremendous volume of 
insect infestation, ice, tornadoes, different types of natural 
disasters, maybe in a smaller forest, but certainly just as 
catastrophic. You might want to expand on that a little bit.
    Mr. Crouch. The folks, Senator, that I represent very 
strongly support FERRA. The thing that we are kind of looking 
at is, as the Under Secretary said, we believe that FERRA will 
substantially reduce the cost of the NEPA work, reduce the cost 
of litigation, reduce the cost of appeals. We believe it will 
therefore bring an awful lot more opportunity for recovery of 
many of these fires that we have heard talked about, or insect, 
disease problems, or Katrina type stuff, that has not been very 
well restored in the past.
    So what I am really saying is you have got a tremendous 
number of acres that, for example, may need to be reforested 
and those cost tremendous amounts of money. So what I am 
suggesting is that the savings on the one hand from the 
paperwork side, if you will, may not be nearly great enough to 
take care of the additional acres that will be treated. So 
while the mechanisms in this bill are OK, I suggest that they 
probably will not produce adequate dollars.
    Senator Lincoln. Well, that is so important, because that 
is something up here that we deal with constantly, are the 
resources that are needed to do all of the great ideas that we 
try to bring together and balance up here in terms of 
management and legislation that provides the tools out there. 
But if the resources are not there to do it, it just becomes a 
big ball of frustration for everybody, us as legislators and 
certainly those that are out in the field to implement it.
    So I think that is important. Under Secretary Rey did 
mention that he thought that there were considerable savings 
there, but----
    Mr. Crouch. I agree with that.
    Senator Lincoln. Right. But without a doubt, ultimately it 
is whether there is enough savings to be able to do what we 
want to do and would additional resources be necessary, which 
is something we have to consider here.
    What on the ground--again, Mr. Crouch, what on the ground 
benefits resulted from the active recovery on our Ouachita 
National Forest following the ice storm in 2000? That was 
devastating to us in Arkansas in December of 2000, the ice 
storm that was tremendous really across the southern part and 
the western part of the State. Kind of what negative effects 
were there?
    Mr. Crouch. You know, that is a real good question. We had 
an ice storm about Christmas of that year that really destroyed 
the timber on lots of acres. Estimates were there was probably 
200 million board-feet on the ground. The Forest Service made 
the decision to actively salvage as much of that as possible. 
We went to CEQ and was given some alternative arrangements and 
the Forest Service immediately began to expedite it, weighing 
the timber, things that were quite different from what they 
have traditionally done.
    As a result of that, about 100 million board-feet was 
harvested before the bugs began to ruin it. When you look at 
the ground today that was harvested as compared to the grounds 
that were not harvested, you see a much, much different forest. 
The forest is beginning to regenerate. A lot of it, short-leaf 
pine has been planted, as compared to the other acres where you 
have got tremendous tons of fuel still on the ground, it is 
drying out, it is drying up, and the ecosystem is beginning to 
change in a lot of cases.
    Basically, in Arkansas, as you know, we get maple and sweet 
gum, stuff like that, back in catastrophic events. We typically 
do not get back the pines that we look for economically. So we 
do not have any question in our minds on many, many pieces of 
ground that it is much, much better to institute active 
management, salvage it, restore it. There are other cases, 
obviously, steep slopes, things like that, where you should 
not.
    One decision that was made on the Ouachita case was to stay 
out of the streams, stay out of the streamside zones. So there 
was a lot of acres left there that was not touched. Now the 
biologists are saying we have got to go back in there, thin 
that out somehow, so we can get the benefits we need for 
wildlife, and so they are kind of going back and trying to 
adjust.
    Senator Lincoln. Well, I think it is so important that 
first and foremost, that everyone is engaged, and I know 
through our forest initiatives, our landowners and others in 
Arkansas, the best management practices and the other types of 
efforts that are made to include everybody at the table in 
making those decisions, and obviously the Forest Service as 
well, has really been a tremendous benefit to recognizing, back 
to the question that Senator Ringo was bringing up, and that is 
when it is best to have a management plan and when it is not. 
Having lived through that ice storm in 2000 and seeing the kind 
of fuel that was left on the floor and then the repeated 
droughts that we had after that, it was a terrible 
circumstance.
    I know that forest fires create these pictures that are so 
horrific and you look at the results of an ice storm and it is 
almost gorgeous. So it is hard for us in the South and areas 
where we do see these types of situations to really bring about 
the impact of what it has on our economy and on our ecosystems 
in the forests that we enjoy for so many things.
    So I just think really the idea that everybody comes to the 
table and looks at what the circumstances are, what the 
objectives are, in making sure that as we go through those 
detailed plans that we think forward and think carefully about 
the steps that we take, I think that is important.
    Ms. Kupillas, in your testimony you referred to the social 
and the community aspects of more timely forest regeneration. 
Would you like to elaborate on that?
    Ms. Kupillas. Yes, Senator Lincoln. The communities 
surrounding these burned forests, the mills depend on a 
consistent supply of wood. When we have dead standing timber 
that seems available to supply these mills, then it seems 
logical that we should be able to take out the timber and at 
least maintain some of the jobs that are in these rural 
communities.
    I would like to respond also to a couple of statements that 
Senator Ringo said if I could, please. On the Donato report, 
Donato indicated that the regenerating trees were damaged after 
3 years of delay, that the regenerated trees were damaged when 
they went in to do some harvest. I would suggest that the 
Donato research supports FERRA because FERRA says the essence 
is to get in there early, before those little seedlings start 
growing again, get in there early and harvest before that 
happens, and therefore you would not have damage to the 
seedlings.
    I could give you many other examples, and it is in my 
written testimony, of areas that have not been restored side by 
side with areas that have on private or State lands. There are 
many, many circumstances where restoration really should occur 
and does not occur. But I think that there are many social and 
economic effects. As we drive through the Biscuit, there are a 
lot of tourism aspects. Dead standing slopes that are bare and 
eroding now really do not attract the tourists.
    This used to be a sea of green. I have flown over it when 
this was mile after mile after mile of green forest.
    Senator Lincoln. Is the tourism the only ramification? I 
mean, what other--you spoke about the acres that were left 
untreated in the Biscuit Fire, the lack of restoration. It has 
affected the community, the neighboring community, through 
tourism. Perhaps are there other things?
    Ms. Kupillas. Well, the mills that really could put another 
shift or two on should they have had the several billion board-
feet of timber available to them. There are local mills that 
could have been on that had it been done early enough. But 
after deterioration, after all the lawsuits had been dropped, 
then most of those mills really cannot afford to go in there 
and harvest dead trees that have deteriorated.
    Senator Lincoln. Right.
    Senator Ringo, you have mentioned, and I agree with Senator 
Crapo, that we definitely want the use of sound science. We 
have consistently said that in this committee. Whether it is 
trade or reforestation or our industry areas, science is 
critical.
    To me, one of the issues that comes up most readily from 
all of you is the timeliness of it. Of course, that issue also 
falls back onto whether or not the resources are there to pull 
the necessary groups together, to have the kind of research and 
science necessary to make timely decisions. If you wait too 
many years, seedlings have come up. Then you have the problem 
of damaged restoration that is occurring naturally when you go 
in too late to make the correct restoration that you would like 
to do from a manual standpoint.
    Do you have any comments? You referenced the Yellowstone an 
awful lot. You might want to--and I do not know if there is a 
different version or maybe you have some insight on why the 
natural restoration in Yellowstone might have been different 
than maybe some of the lack of restoration that has occurred on 
Mount St. Helen's that Ms. Kupillas was referencing.
    Mr. Ringo. Senator, I have gone hiking up on Mount St. 
Helen's and I think there have been all kinds of pictures 
showing remarkable natural restoration on St. Helen's as well. 
Again, it can depend on what your management objective is. If 
you are Weyerhauser, you want a big tree farm that is going to 
grow as fast as possible so you can harvest them as fast as 
possible. That is a different objective than saying you want an 
ecologically balanced area that is good for habitat. It is a 
different objective.
    I think we need areas with both objectives. But the second 
objective, of a balanced environment, a balanced ecological 
system, that will regenerate naturally and it is not 
Weyerhauser's objective. So I do not think it is fair to look 
at what Weyerhauser did in trying to restore a tree farm as 
fast as possible and say, gee, that is the way we want all of 
our forests to be.
    Just as a point on the science, it is difficult. I think 
there is lots of disagreements. A lot of it does depend on what 
part of the country you are looking at. The Yellowstone is 
different than the southern part of the United States, which is 
different than the wet coastal ranges in Oregon.
    Senator Crapo asked me about the weight of the evidence. 
The problem I have with where this bill is going is I believe 
that some of the science does rely on scientists that are 
really working at the behest of the industry. That is 
demonstrated through these emails from the College of Forestry, 
where essentially the industry is spoon-feeding the leadership, 
saying we want you to help us with our political problem, 
please get some professors to come out with a report that says 
this.
    At least the Daniel Donato report was independently peer 
reviewed, which is really the mark of excellence in science. 
This committee has relied on the report of Professor John 
Sessions before with a study that was never independently peer 
reviewed and said, well, that is the good science and that is 
what we are going to rely on. I just suggest to you that the 
studies from Professor Sessions really are done at the behest 
of industry and that is why they should be given less 
credibility. I hope we do not latch onto one scientist we 
believe because we like that conclusion and because it is 
politically expedient.
    Senator Lincoln. Well, I think the objective of the 
committee is to certainly gather a wide variety in our panels 
as well as in our science and the scientists that present it, 
in order to make sure we come up with a balanced approach.
    Just one last question for Mr. Thompson. You compared the 
post-fire situations on State and private forests versus 
national forest lands. Maybe you might go a bit further or in 
more detail about the difference between the approaches and the 
results that were there. That might be helpful to us in the 
committee. You might want to share your views on the role for 
research and certainly monitoring to validate some of the----
    Mr. Thompson. Well, the approach obviously was that State 
lands, being State trust lands, that money is used for 
education. In the State of Montana we are having an education 
crisis at the moment, trying to fund, as I am sure in your 
State and many States are having the same problem.
    Natural resource is one way that we can utilize funds for 
education. When they went into the Sula State lands they were 
able to harvest that timber, bring it off, and although we do 
not have mills in our county to harvest it and utilize it, they 
moved into Missoula County, some of the other counties north of 
us, and were able to see some economic impact there.
    Again, the land--we can talk about science all we want and 
the approach and the way that it looks when you are all done 
with it, but the best example is to come out on the land and 
see the different approaches, look at the private land where 
people have gone in and done the work that needed to be done. 
It can be done in an economically friendly way and that is the 
way the Sula State lands were done. Again, the timber was 
harvested in the winter over the snow, over frozen ground. 
Nothing was damaged.
    The Federal lands again, ugly, straight stalks of black 
trees sticking up, fallen over in some wind-blown areas, and so 
forth.
    I would like to make one comment on Mr. Ringo's last 
comment about Yellowstone. As you are well aware, Yellowstone 
sits partially in Montana, and I have been into that burned 
area many times. Forests when they regenerate and regrow should 
not look like wheat fields, and much of the area that has been 
regenerated in Yellowstone looks like a wheat field. The trees 
are so dense that even small rodents I think are going to have 
a difficult time getting through. Large ungulates are going to 
have a very difficult time in there--bison, elk, deer, 
etcetera.
    Again, we can look at it and say that area without any 
approach by us doing any recovery has recovered itself. But I 
think that we need to look at long-term and not short-term. Let 
us wait a little bit and see what happens to Yellowstone in the 
next few years. There may be another catastrophic event there.
    It may be such that it burns so intense that there are 
areas of the Bitterroot, there are areas of Yellowstone, that 
have hydrophobic soils, that have been damaged down 10 to 12 
inches and nothing is going to grow for a long time. You must 
get in, break that soil up, break that hydrophobic surface up, 
plant trees, do some restoration work. That has been done on 
the Sula State lands, on many of the private lands, and not all 
of the Federal lands.
    Senator Lincoln. Well, we appreciate the panel. I am going 
to turn it back over to the chairman if he has any further 
questions. But just to say that certainly our objective here is 
to look at the balance of all of the things we are trying to 
achieve--without a doubt the conservation of the land, the 
economics that can be used, the timeliness of what we need to 
do in order to achieve those things, and most importantly 
keeping healthy forests in our Nation.
    With twin boys that are 10 years old who are with the 
Scouts right now out in the forests at Scout camp this week, it 
is very much an objective of mine that future generations will 
have the benefit of enjoying the forests like I did in the 
Ouachita and the St. Francis, the wonderful forests I was able 
to grow up in.
    So Mr. Chairman, I thank you for your leadership. I will 
turn it back over to you and assure the panel that we will work 
on a balanced approach.
    Senator Crapo. Well, thank you very much.
    Again, we thank this panel for your attendance and the 
testimony you have provided today. We will excuse you and we 
will call up our third panel. While the third panel is coming 
up, I will introduce them as well. Our third panel consists of: 
Dr. John Helms, who is Professor Emeritus of Forestry at the 
University of California, Berkeley, who will be representing 
the Society of American Foresters; Dr. Jim Karr, an Ecologist 
and Professor Emeritus at the University of Washington; Mr. 
Robert L. Krepps, St. Louis County Land Commissioner; and Leah 
W. MacSwords, Director and State Forester of the Kentucky 
Division of Forestry.
    Senator Crapo. Again, we would like to welcome all of you 
for the time and effort that you have put forward to help this 
committee and to participate in this panel. I again remind each 
of you to try to pay close attention to that clock as we move 
forward.
    Dr. Helms, we will begin with you.

   STATEMENT OF JOHN A. HELMS, PH.D., PROFESSOR EMERITUS OF 
FORESTRY, UNIVERSITY OF CALIFORNIA, BERKELEY, ON BEHALF OF THE 
                 SOCIETY OF AMERICAN FORESTERS

    Dr. Helms. Thank you, Chairman Crapo, for the invitation to 
provide testimony at this hearing. As you mentioned, my name is 
John Helms and I am a Professor Emeritus from the University of 
California, Berkeley. But I am here this morning to give 
testimony on behalf of the Society of American Foresters. As I 
am sure you are aware, the society has a membership of about 
15,000 people, who represent a very broad range of expertise, 
including forest managers, researchers of a variety of kinds 
from geneticists through to economists and biologists, and also 
consultants.
    What I would like to do first of all, however, is comment 
that just prior to coming to the hearing, as you mentioned, 
there is a fire occurring in northern California, and this is 
rather significant because it is burning into a fire--an area 
that previously burned in 2001. That area, which was national 
forest land, was not salvaged due to process delays. They 
attempted to sell some logs at about 2, 2-1/2 years after the 
fire and no one bid on the sale.
    Just 2 days ago, fire came over the ridge, into that area, 
and completely eliminated all the standings, dead snags, all 
the downed logs, for the second time damaged the watersheds, 
and for the second time threatening the town of Weaverville. So 
I think it is pertinent to your committee to appreciate that a 
second fire only 5 years after the first can create a 
significant amount of damage.
    I would like to summarize my testimony by just a few 
points. The first is that we are going to continue to have 
catastrophes such as we have had in the past due to wildfire, 
due to insects and disease, due to windstorm, and the question 
is what should we do about these lands. Is the land better 
served to let it proceed under natural conditions or should 
there be active management?
    Resolving this issue really depends on emphasis being 
placed on identifying just what are the needs that are peculiar 
to that particular fire, that particular situation. Undoubtedly 
there will be mixes of responses that are appropriate. Some of 
the areas should be left alone for natural regeneration and 
recovery. Other areas a prudent land manager would want to 
address the possibility of salvage harvesting, and there may be 
other areas that would warrant some other kinds of restorative 
action.
    Now, the areas that would benefit from salvage cutting, I 
want to emphasize that it is essential that prompt action be 
taken. We have abundant past experience. There is abundant peer 
reviewed research since the 1930's that has shown, particularly 
in areas that are relatively dry, that the burned areas rapidly 
become dominated by shrubs. So the importance of promptness is 
to get the slower growing conifers established before the areas 
become covered with shrubs.
    Alternatively, one can, instead of having shrub fields 
there for perhaps 50 or so years, is to adopt some kind of 
action that enables one to return that forest back to pre-burn 
conditions in a much smaller frame of time.
    Therefore we believe it is critically important for 
Congress to establish a process as outlined in FERRA, that 
involves immediate professional assessment, immediate 
consideration of prompt action using best management practices 
within the context of pre-approved plans. Again, I really want 
to emphasize the importance of the promptness to prevent the 
shrubs taking over the land.
    I would like to perhaps illustrate with three posters here. 
The area on the left is national forest land that has not been 
salvaged. This is from a fire in 1992. The area on the right 
shows rehabilitation through planting. The question is does the 
area on the right that has planting enable the landscape to be 
returned to pre-burn conditions quicker than if it was left 
unattached.
    The second poster, which I am afraid, Chairman Crapo, you 
cannot really see, shows an area that has been reforested 
after, 45 years after the burn. The interesting thing about 
that image is that it is a mixed conifer forest. The average 
person would not expect that that was a planted forest. It 
looks very natural.
    The third one, behind you, is again a 45-year old area just 
adjacent to this one that was replanted, which is still a 
permanent brush field.
    So I would like to thank you very much for your giving me 
the opportunity to provide testimony and I will be very pleased 
to address any questions you might have. Thank you.
    [The prepared statement of Mr. Helms can be found on page 
53 in the appendix.]
    Senator Crapo. Thank you very much.
    Dr. Karr.

STATEMENT OF JIM KARR, PH.D., ECOLOGIST AND PROFESSOR EMERITUS, 
         UNIVERSITY OF WASHINGTON, SEATTLE, WASHINGTON

    Dr. Karr. Thank you, Mr. Chairman, for inviting me to be 
here as you discuss the Forest Emergency Recovery and Research 
Act. As you know, our Nation's forests provide vital natural 
and cultural benefits for all Americans. What you may not know, 
however, is that certain forms of disturbance play a vital role 
in sustaining our forests. Although people see wildland fires, 
wind and ice storms, and insect outbreaks as catastrophes 
affecting Federal and non-Federal lands, over time such events 
have in fact both created and helped sustain the character of 
many regional ecosystems.
    Unfortunately, H.R. 4200 does not acknowledge that these 
disturbances play a constructive role. Rather the act is 
founded on the premise that, quote, ``recovery treatments,'' 
end quote, are needed, quote, ``in response to catastrophic 
events affecting lands,'' end quote.
    I am especially dismayed that H.R. 4200 takes this view, 
given that half a century of publicly funded research by 
government and nongovernment scientists from a wide range of 
disciplines has demonstrated the contrary. My remarks today are 
based on my ecological research over 4 decades, particularly on 
research over the past 12 years with a dozen scientists, 
examining what happens when areas affected by natural 
disturbances--notice I did not use the word ``catastrophe''; 
natural disturbances--are left to regenerate on their own or 
when humans intervene.
    The first point I wish to make is that logging after 
natural disturbances is not an ecosystem restoration tool. Such 
logging damages forest landscapes, limiting populations of 
species crucial to the maintenance of these landscapes by 
impeding the natural processes that have long sustained these 
ecosystems. A substantial body of evidence, some dating from 
the early 20th century, demonstrates that post-disturbance 
logging impairs the ability of forest ecosystems to recover 
from natural disturbances.
    Specifically, post-disturbance logging prevents or slows 
natural recovery by slowing the establishment of plant and 
animal populations and degrading streams. For example, the 
dramatic physical changes in forest structure resulting from 
hurricanes and insect infestations in New England do not 
disrupt biogeochemical cycles or degrade water quality, but 
post-disturbance logging increases nitrogen lost from those 
landscapes and does degrade water quality.
    Post-disturbance logging also threatens species listed 
under the Endangered Species Act and places more species at 
risk, making future listings a near certainty. Damage from 
post-disturbance logging may consist of direct effects from 
logging, such as increased mortality of trees and other 
seedlings and damage to soils, or indirect effects of 
activities associated with logging, such as more traffic on 
existing roads, creation of new roads, or the spread of 
invasive species.
    These observations are not mere points in an abstract 
scientific debate. They constitute an accumulation of on-the-
ground evidence that logging after disturbance harms rather 
than helps the regeneration of forests. As one prominent forest 
ecologist has put it, and I quote; ``Timber salvage is most 
appropriately viewed as a tax on ecological recovery.'' End 
quote.
    The second point I wish to make is that recommendations 
exist for how to avoid damage from post-disturbance treatments 
and how to speed recovery of both terrestrial and aquatic 
systems. Because time is limited, I cannot discuss these 
recommendations in any detail. They are provided in my written 
testimony. They note that maintenance of healthy systems will 
limit the effects of natural disturbances, that post-
disturbance activity should be limited in many circumstances. 
In the unusual circumstances when they are necessary, they must 
be done within the framework of a carefully formulated, 
scientifically rigorous program. As a tangent here, I would 
like to note that science is not a monolith and the science 
that we have heard people speak about today is not always the 
same thing, although the same word is used.
    This post-disturbance logging should not be done in a rush, 
as happened following a major wind storm where, and I quote a 
person doing the analysis of that, ``action was a substitute 
for thought.'' Because the lessons of science are so clear on 
this subject, more than 500 scientists from diverse 
disciplines, institutions, and geographic areas have 
acknowledged the ecological merits of the recommendations 
outlined in my written testimony. I ask that this letter be put 
into the hearing record with those 540-some signatures.
    Senator Crapo. Without objection.
    Dr. Karr. Yet I suggest that careful reading of H.R. 4200 
reveals assumptions and language in the act that run counter to 
most of these recommendations.
    In closing, may I also suggest that, like all legislation 
involving science, H.R. 4200 should be debated on its 
scientific merits, not its politics. Rather than rush to 
implement emergency treatments and risk undermining the 
public's interest in healthy Federal lands, as H.R. 4200 
appears to do, I respectfully urge this committee to examine 
with great care the act's potentially irreversible 
consequences.
    Thank you for giving me the opportunity to testify today. I 
shall be happy to take any questions you may have.
    [The prepared statement of Mr. Karr can be found on page 61 
in the appendix.]
    Senator Crapo. Thank you, Dr. Karr.
    Mr. Krepps.

 STATEMENT OF ROBERT L. KREPPS, ST. LOUIS COUNTY COMMISSIONER, 
                       DULUTH, MINNESOTA

    Mr. Krepps. Mr. Chairman, members of the subcommittee: I am 
pleased to provide testimony today on an important topic of 
forest recovery and reforestation, specifically the Forest 
Emergency Recovery and Research Act. My name is Bob Krepps and 
I currently serve as the Land Commissioner for St. Louis 
County, Minnesota. We manage 890,000 acres of county land, 
including several thousand acres within the Boundary Waters 
Canoe Area within the Superior National Forest.
    I recently moved to Minnesota, having previously served as 
the State forester in Missouri for 6 years, and I have been 
engaged as a professional forester at the Federal, State, and 
now county level for 39 years. Today I am here to relay a need 
for action, action on the Nation's Federal lands after 
catastrophes, natural events, that type thing, where currently 
very little occurs.
    I am not here to say that we need to do something on every 
acre after an event. But if the professional forest managers in 
the field, after public involvement and environmental analysis, 
think some recovery actions are necessary, they should have the 
processes and legal support to act quickly.
    I would like to cite an example that Senator Coleman 
referred to. On July 4, 1999, a very intense wind storm came 
across northeastern Minnesota. It laid down basically 477,000 
acres of forest land, primarily on the Superior National 
Forest, primarily within the Boundary Waters Canoe Area, but 
albeit 477,000 acres of forest was blown down and laid on the 
ground, which created a potential for intense burning fires.
    8 years and 10 days later, a lightning storm came across 
the same area in northeastern Minnesota and resulted in two 
fires burning that are currently burning, as Senator Coleman 
referred to, burning about 34,000 acres at a direct cost to 
suppress and manage of $7.6 million as of 2 days ago.
    I am not here to belabor the point of whether action should 
be taken in the wilderness. I am here to talk about early and 
prompt response to these type situations. Within St. Louis 
County, within the county lands, we rapidly did an assessment. 
We began the process of implementing projects and on the 7700 
acres, more or less, of county land that was affected by the 
blowdown, by September we had the first round of projects 
available for implementation and in December we put the rest of 
them up. To date we have recovery under way on nearly 5,000 
acres of forest land that the county manages, and that includes 
the harvest, removal of the fuel, and replanting.
    It is important to note that St. Louis County Lands 
Department manages our county lands to provide optimum returns, 
while also aiming to ensure long-term sustained yields of 
renewable resources and to provide protection for wildlife, 
watersheds, and to provide for a diverse recreation resource.
    St. Louis County also maintains dual certification by both 
the Sustainable Forestry Initiative and the International 
Standards Organization. Included in these certifications is a 
requirement to maintain environmental compliance with Federal, 
State, and local laws, regulations, and ordinances, and we are 
audited annually.
    Having worked at the Federal, State, and county levels, I 
would say that the level of environmental consideration at the 
county level is at minimum equal to or exceeds the Federal 
standards and certainly involves less process and allows us to 
be more responsive.
    I have several other examples that I would like to have 
just entered into the record through my written testimony. In 
summary, it is clear to me after witnessing these and other 
forest catastrophes first-hand that Congressional action is 
needed to better enable timely Federal response. When forest 
managers are allowed to move forward with timely recovery and 
reforest activities appropriate for the values and uses 
associated with the forest, the forest can be restored in a 
timely manner, sometimes much quicker than when left alone.
    Congress needs to untie the Federal land managers' hands 
from lengthy process and administrative hurdles to enable 
Federal forest recovery. CEQ enabled this in the Superior 
National Forest with the granting of alternative arrangements. 
FERRA would accomplish similar objectives.
    I strongly urge this committee to take action on FERRA and 
strongly support it. There are other bills that have been 
introduced as well within the Senate with options for 
addressing this problem and I encourage you also to take a look 
at these ideas and consider them as you move forward.
    I guess in closing, Congress has an opportunity to provide 
the support and tools for Federal forest managers to better 
manage Federal forests. It is a tragedy that management of 
these forests, a national treasure, has become a quagmire of 
litigation, burdensome process, and court-driven 
decisionmaking. Forest managers know what needs to be done and 
they have incorporated science into their work through 
evolution over careers. But they are shackled in their ability 
to actually do the work needed.
    I appeal to you here in Congress to clarify the laws, 
streamline the process, and give Federal managers the tools 
they need to bring the Federal forests back to being a national 
treasure. Thank you for this opportunity. I will be happy to 
answer any questions you might have.
    [The prepared statement of Mr. Krepps can be found on page 
66 in the appendix.]
    Senator Crapo. Thank you, Mr. Krepps.
    Ms. MacSwords.

 STATEMENT OF LEAH W. MacSWORDS, DIRECTOR AND STATE FORESTER, 
   KENTUCKY DIVISION OF FORESTRY, ON BEHALF OF THE NATIONAL 
                 ASSOCIATION OF STATE FORESTERS

    Ms. MacSwords. Thank you, Mr. Chairman and members of the 
subcommittee, for this opportunity to testify today. I 
represent the National Association of State Foresters. NASF 
supports FERRA because it will speed the implementation of 
recovery projects on Federal, State, and private lands and 
authorize needed research. It reflects the landscape scale of 
catastrophic events and recognizes that restoration work is 
more effective when it is coordinated across all ownerships 
through the use of assessments, restoration planning, and on-
the-ground activities, and it provides funding mechanisms for 
restoration activities for private lands and communities.
    In my written statement, I included examples from Kentucky, 
Minnesota, and the Southeast to show how we must deal with 
forest recovery at the landscape scale if we are to responsibly 
care for the Nation's forest resources. Allow me to share with 
you another example from Kentucky and submit additional 
information for the record to demonstrate the importance of 
this bill to the forests that are east of the Rockies.
    On November 15, 2005, a tornado ripped through western 
Kentucky and greatly impacted the Land Between the Lakes 
National Recreation Area. It came across the northern end of 
the LBL and damaged timber in two areas. In one area cleanup 
efforts have been abandoned by the Forest Service due to 
cultural resources there. Proposed restoration activities on 
the other area, known as Tornado Alley, are under appeal and 
the Forest Service has taken no action.
    In my written statement I described an ice storm that 
occurred in February 2003 which caused severe damage to 
thousands of acres of Federal, State, and private owned forest 
land in central and northeastern Kentucky. We were able to 
harvest the damaged timber on the Tygarts State Forest in less 
than 12 months. We would have finished that harvest sooner, but 
we had a confirmed Indiana bat sighting, which required us to 
obtain an incidental take permit from the U.S. Fish and 
Wildlife Service and delay the harvest until winter to reduce 
any possible impact on the bat.
    Meanwhile, the Forest Service surveyed the damage on the 
nearby Daniel Boone National Forest and determined a 
restoration harvest was needed. They started the long process 
that they have to go through and issued a finding of no 
significant impact in February 1906. The first on-the-ground 
work is finally expected to begin this month, 3-1/2 years after 
the storm. But I understand that a lawsuit may soon be filed to 
challenge the agency's decision. Timber buyers in Kentucky 
doubt that the downed timber on the Daniel Boone will have much 
value to them at this late date.
    I have another example to present for the record. What 
happened in Wisconsin mirrors what happened in Kentucky. A 
severe wind storm swept through two counties in northern 
Wisconsin in July 1999. Extensive areas of public and private 
forest land and a portion of a national forest were impacted. 
State, private, and non-Federal public agencies took quick 
action. They completed most of the salvage as well as training 
of fire personnel within 6 months.
    By contrast, administrative and legal procedures kept the 
Forest Service from awarding contracts for salvage until 
January 1904, 4-1/2 years after the storm. By this time, much 
of the timber value was lost and the fire danger remained 
elevated for several years until the salvage harvest work was 
complete.
    Since the passage of the Healthy Forest Restoration Act, 
the national forest staff have worked vigorously to complete 
other salvage environmental assessments in 9 to 10 months as 
long as there are no objections that can cause delays. Thus, 
even under the best circumstances, with current authorities the 
Forest Service cannot mitigate the summer storm damage until at 
least one fire season has occurred and with continued high fire 
danger and loss of more timber value.
    NASF strongly supports the expedited process in this 
legislation, which still requires Federal agencies to comply 
with applicable land management plans, protect soil, water 
quality, endangered species, and historic values, and provide 
public notice and engagement. If we can act quickly on State 
and other non-Federal lands and still protect the environment, 
then Federal land managers should be able to follow suit.
    The Forest Service and BLM must be able to deal with these 
disasters quickly and effectively because these catastrophes do 
not respect boundaries. We must work cooperatively across the 
various levels of government.
    We urge your support for the passage of the bill and I 
thank you for the opportunity to testify. I would be happy to 
answer any questions you may have.
    [The prepared statement of Ms. MacSwords can be found on 
page 76 in the appendix.]
    Senator Crapo. Thank you very much.
    Dr. Helms, I think I will start out with you. Do you know 
of, either through the scientific literature or through your 
own personal experience, do you know of ecological benefits 
that come from recovery and reforestation activities? If so, 
could you give us some explanation and further development of 
that?
    Dr. Helms. My response would be my experience in California 
in the 1950's and 60's. At that time California had about one 
million acres of brush field and the Forest Service had a very 
active program or initiated a very active program of what was 
called brush field reclamation. Now, these brush fields were 
probably 50 years old. They had been sequentially burned and 
would remain in brush field.
    So in response I would say one of the big success stories 
in California has been to take what was almost a million acres 
of brush field, some of which of course still is brush because 
it was deemed best kept in that state, but the majority of the 
area is now thriving forest and it looks for all the world like 
natural forest. It is mixed species and mixed habitat and is a 
real asset to the people of the State and the Nation.
    Senator Crapo. Thank you very much.
    Why is it sometimes necessary to actively recover forest 
sites?
    Dr. Helms. I think the two posters you have here illustrate 
that. It depends upon in the public's interest how quickly do 
you want to return the forest back to a pre-burn condition. If 
you take no action, then the area will proceed through plant 
succession in its normal time and this may take decades or even 
50 years. That is perfectly fine, but when you have burns that 
are tens of thousands or hundreds of thousands of acres, 
particularly on dry sites, is this in the Nation's best 
interest, to have these lands not returned quickly back into 
the kind of form that might provide the variable values and 
benefits that society wants?
    Senator Crapo. Thank you.
    Dr. Karr, is it your testimony that reforestation 
activities are never appropriate, that we should never engage 
in active management in the face of a fire or any of these 
infestations that we have been talking about today?
    Dr. Karr. I think nothing should ever happen always or 
should never happen. I agree with that point completely.
    I think that much of the testimony that I have heard today 
focused on getting the value out of the timber that was damaged 
by the fire, the insect outbreak, storm damage. Value there was 
crafted in the context of salable board-feet of wood. Often the 
value that derives from leaving those pieces of wood on the 
landscape exceeds or at least equals the value to be derived 
from that harvest, because of protection of water quality, 
because it will speed the succession or the redevelopment of a 
complex forest ecosystem there, because it will retain the 
populations of birds that are crucial in controlling 
populations of pest outbreaks in the future.
    If you go in and remove all of that wood, then you do not 
have places for those populations of animals that might feed on 
the pest insects to control their populations in the future. 
There is a whole series of dimensions from water quality to 
soil quality to complexity of plant and animal life that occurs 
on these places, including downstream effects on communities as 
far away as coastal ocean environments, that are influenced by 
the nature of water quality and fish populations that are 
sustained by these headwater streams and forested landscapes.
    Senator Crapo. I noticed you said often that is the case. 
Other witnesses have said that there are occasions when active 
management should not be pursued, but that there are occasions 
when it is the most appropriate approach. Would you agree with 
that, that there are times when it should be done and times 
when it should not? Or are you saying that we should not engage 
in logging activities?
    Dr. Karr. I am saying that the language in the bill 
suggests to me that the framework and context and thinking 
about how this bill will be implemented pretends that the 
scientific information that includes these other dimensions of 
consequences have not been brought to bear on the crafting of 
the language in the bill.
    If that is the case, and I believe it is the case, then it 
is profoundly important that we incorporate the scientific 
results that tell us about things other than board-feet 
harvested as the only context of conservation, to use Mr. Rey's 
term from earlier in the morning.
    Senator Crapo. So if I--I want to be sure I understand you. 
Your perception of what the bill says is that the only standard 
to follow in developing the recovery plans is board-feet of 
timber recovered?
    Dr. Karr. No, my perception is that whenever there is an 
opportunity to have language crafted to suggest that we do not 
know anything or that we have limited knowledge, that 
diminishes, demeans, and in fact ignores or distorts the 
knowledge that we do have. It does not bring the existing 
knowledge to bear in an adequate way to protect the broader 
public interest in the context of our forested landscape.
    So let me give you a specific example. The hemlock woody 
adelgid in New England is an introduced pest that is causing 
problems. It was included in somebody's testimony today. There 
is a paper just published, written by a forest ecologist from 
Harvard University, that explores three alternatives as ways of 
treating lands that are associated with the hemlock woody 
adelgid.
    One alternative is to go in and preemptively harvest 
hemlocks to prevent the insect from contaminating the area. 
Another one is to go in after the hemlock--the bug has gotten 
in there and damaged the trees and removed them. Then the third 
alternative was to do nothing post-disturbance. It turned out 
that the worst thing that could happen in terms of water 
quality effects and nitrogen loss from that landscape was the 
preemptive. The second worst thing that could happen was the 
post-disturbance logging.
    The best thing to prevent degradation in water quality and 
biogeochemical cycle consequences was to not do anything post-
disturbance. There are numerous examples of that kind of thing, 
and I do not see that kind of major advance in understanding in 
the last 20 years incorporated into the framework and language 
of this bill.
    Senator Crapo. In the letter that you submitted, which was 
signed by the other scientists, one of the phrases in there is 
it says that ``Neither ecological benefits nor economic 
efficiency result from recovery actions.'' If that is the case, 
then how do you explain all of the other examples we have had 
from many other witnesses today and that this committee often 
sees from witnesses of circumstances where the active 
management has resulted in a much more vibrant and thriving 
forest than the inactive management?
    Dr. Karr. As a scientist, I have spent the last 40 years 
trying to go beyond the simple view that my eyes give me by 
exploring the multiple dimensions of various things that humans 
do and the multiple dimensions of the way natural systems are 
organized. I have repeatedly seen circumstances where on the 
surface things look like they are improved by certain kinds of 
actions, but when you develop the kind of analytical framework 
and exploratory and monitoring contexts that I think are 
important in these issues you understand dimensions that are 
not obvious at that first level of sort of broad overview, as 
can be seen and illustrated from the examples of people's 
visions of things today.
    I would submit that that Harvard example of the hemlock 
woody adelgid is an excellent example of that. There are 
nutrient cycling, biogeochemical consequences, and water 
quality consequences that cannot be seen by the sort of 
standard snapshots, pictures of what is going on. We need to be 
more careful in understanding the multiple dimensions of these 
things.
    In my reading of the scientific literature in the last 30 
or 40 years and conversing with lots of people who have a great 
deal more expertise about many of the dimensions of this than I 
have, I see us ignoring lots of insights.
    Senator Crapo. So if I understand--again, I want to be sure 
I do--your major concern is that you do not think that the 
legislation contemplates the thorough review of the entire 
scientific data bank, if you will, in terms of the direction it 
authorizes for the development of recovery plans?
    Dr. Karr. Both what I see in the bill in terms of the 
language and framework of how it will be implemented does not 
give me confidence, and my experience in watching what happened 
on the Biscuit Fire in Oregon leads me to believe that the sort 
of standard operating procedures of the past will continue to 
be used, as opposed to exploring, understanding, and 
incorporating recent scientific advances in this discipline.
    Senator Crapo. All right.
    Mr. Krepps, what are the conditions today on the St. Louis 
County lands that were actively recovered?
    Mr. Krepps. Mr. Chairman, we have reforestation that has 
occurred. Now, you have to recognize much of our land, about 
half of the acres that were affected, were aspen stands. We 
rely upon natural regeneration, sprouting, to go and get that 
back. We have also reduced the fuel loads on those. So those 
are 5 years headed toward recovery. We operate on a 60-year 
rotation. That is what our planning horizon is and so we have 
got that forest started back, where had we not went in and 
reduced the fuel loading we most likely would have been subject 
to wildfire as well.
    The other half was pine, mixed conifers, and we went in and 
replanted all of those with seed stock that comes from the 
area. It is our seedling stock and it would be native seed or 
native seedlings that grow back. They are on their way to 
recovery.
    We are seeing a lot of benefit. I guess responding a little 
bit to the question to Dr. Karr if I could, a lot of it is 
going to come down to what the objectives of the land 
management agency is. Our objectives are to optimize return to 
the county and to maintain that product coming to industry, as 
well as maintaining a healthy forest for the future. That is 
our objective. Other agencies derive their objectives through 
their line management plans.
    Senator Crapo. Do you think, is it possible to manage 
toward a return, but also achieve the objective of a healthy 
forest?
    Mr. Krepps. Very definitely, very definitely. I think we 
are seeing it. We have had other catastrophic events--natural 
events, I will acknowledge that--that within a short period of 
time we have recovery. I have also seen other areas that no 
action was taken and you have brush fields and less than ideal 
growing conditions.
    So yes, recovery can occur. I have seen it many times in my 
career.
    Senator Crapo. All right, thank you.
    Ms. MacSwords, with the expedited procedures that are in 
this legislation, do you believe that the Federal agencies will 
still be able to protect the environment and recognize the 
science that we have talked about today and assure that we do 
not diminish the viability of our forests?
    Ms. MacSwords. Yes, I believe that they will. State 
agencies have been able to do restoration activities on State 
lands and working with private landowners and protect the 
environment. So I think with the expedited procedures that you 
are going to have in this legislation, Federal land managers 
should be able to follow suit.
    Senator Crapo. That raises me--I will just toss this 
question out to the entire panel. That raises to me a question, 
because we do have experience with management at the State and 
on private lands that has sought to achieve both objectives, 
both a return from the timber as well as environmental 
protection and assurance that we have healthy, strong, vibrant 
forests for ourselves and our posterity.
    I just pass this question out to the panel: Is that, is the 
experience that we have had with the State and private land 
management, evidence that those two objectives can be achieved?
    Ms. MacSwords. Yes, I think you can see that across the 
Nation. In our own case in Kentucky on the Tygarts State Forest 
that I mentioned earlier, what we dealt with was an area that 
we did the restoration harvesting. There was also an area that 
was around a cave area, where we elected not to do restoration 
harvesting. We were able to demonstrate that you would see 
natural regeneration in both areas. You can look now over the 
areas where we did our harvesting and the oaks are coming in.
    So that is an example in my State. But I am aware of other 
State foresters who have faced similar challenges and are 
showing improved environmental benefits on the lands they 
manage and with the private forest landowners that they must 
work with.
    I think one thing that I do not want to get lost in the 
discussion of this legislation is, we focus on what will happen 
on Federal lands, but this is important to private landowners 
and State and local governments as well. Almost 93 percent of 
the forest land in the State of Kentucky is owned by private 
forest landowners. Very little Federal land compared to the 
grand scheme of the amount of forests on the land.
    What happens on private forest lands has the ability to 
impact what happens on the national forest lands and vice 
versa. Insects, diseases, disasters do not stop at the boundary 
line. So it is important that we all be able to work together 
to look at this landscape style management following any kind 
of disaster, whether you call it a catastrophe or an ecological 
burp in the system. You have got to be able to address it on a 
wide-scale level and that is what is important about this piece 
of legislation.
    Senator Crapo. Anybody else want to jump in?
    Dr. Helms. Mr. Chairman, I would encourage the committee to 
take a look at the case examples that are available when you 
look at the way in which different ownerships handle responses 
to these kinds of major disturbances, because you can have 
very, very on the ground case examples of just what different 
approaches, how effective different approaches are.
    I would just add that, in addition to State and private, I 
suggest that the committee also look at tribal lands, because 
in the West the land management objectives of the tribal 
peoples include a high level of sensitivity to environmental 
issues, and it would also be instructive for the committee to 
see how they respond to these kinds of issues in which they 
take active approaches to return the forest back to pre-burn 
conditions in a very successful manner.
    Senator Crapo. Thank you.
    Anybody else want to?
    Dr. Karr. Yes, I would just comment. I do not have 
knowledge of many States, but I have watched the process in the 
State of Washington and I am a little dismayed by the extent to 
which forest harvests to funding for schools is over the long 
term compromising the long-term ecological and other benefits 
that can be derived from those State forest lands. We are in a 
situation where the schools are in some sense liquidating the 
natural capital in forest lands at a rate faster than it can be 
sustained over the long term. That will both over the long term 
damage the schools and damage the natural resources of the 
State.
    Senator Crapo. So are the State-owned forests in 
Washington, in the State of Washington--are you saying that 
they are degrading?
    Dr. Karr. I believe that that is a not unreasonable 
conclusion based on some of the land management decisions and 
so forth that are being made in the State of Washington, yes. 
If I could expand on the other point that was made, I strongly 
encourage looking at what counties, States, and various Federal 
agencies are doing in light of these kinds of issues, because 
it is something that has to be done across landscapes where 
there is an interdigitation of ownership and so forth.
    I think it is really very important to go beyond the sort 
of veneer of those things and ask questions in each of those 
cases, what are the goals and what are the consequences in the 
many dimensions that are important in Federal land management 
to protect the broad public interest. It is easy to find things 
being done. It is harder to understand what the consequences in 
their multiple dimensions of those decisions are.
    Senator Crapo. Thank you.
    Mr. Krepps, did you want to have the last word? I will let 
you have the last word if you want it.
    Mr. Krepps. Thank you, Mr. Chairman. Many good points made 
across the table. I guess from my perspective looking at the 
objectives, looking at where we need to go, certainly I 
understand the need for additional research, but I will also 
say that the forestry profession, the natural resource 
profession as a whole, has been evolving based on science since 
the beginning of the century, of the last century. Certainly 
there are still unanswered questions. We are always going to be 
looking for that additional research.
    We also have to factor in the social and economic factors 
that we face on a daily basis within our communities and the 
need to utilize a product that is beneficial to society and to 
our economy in this country. As I said, we have a national 
treasure here. Our forest is a treasure that needs to be cared 
for and valued, and I believe we have diverted away from that 
over the last few years and we need to get back to it.
    Thank you.
    Senator Crapo. Dr. Helms, you want the last word?
    Dr. Helms. If I may. Mr. Chairman, I would like to comment 
on the example provided by the Yellowstone burn, if I may.
    Senator Crapo. Sure.
    Dr. Helms. I would like the committee to understand that 
there is considerable variability in the way in which different 
forest types behave to fire. In the case of Yellowstone, the 
predominant species is lodgepole pine and this species is a 
pioneer species which the reproduction is enhanced by fire. In 
fact, it requires fire for the cones to open. So it is no 
surprise to ecologists to see that there is extremely rapid, 
very dense regeneration following the burn from lodgepole pine.
    But I would hesitate to extrapolate that situation into 
other forest types.
    Senator Crapo. Well, thank you.
    There is never a lack of controversy in these kinds of 
issues and these kinds of--this type of legislation. I 
appreciate the time that not only this panel but all of our 
witnesses today have put into helping us as a committee to 
evaluate it. We all know that there are a lot of politics, but 
there is also a lot of science and technological issues that we 
need to address and understand as we move forward on major 
legislation like this.
    I assure you that this panel is going to very carefully 
evaluate the information that you have provided. It is 
possible--we will keep the record open for 5 days and it is 
possible that you will receive questions from other Senators 
who did not have an opportunity to make it to the hearing. We 
encourage you to respond to those promptly. Then we will 
carefully evaluate the information that you witnesses and 
others provide to this committee as we move forward.
    With that, this hearing is adjourned. Thank you very much.
    [Whereupon, at 11:34 a.m., the subcommittee was adjourned.]
 
=======================================================================


                            A P P E N D I X

                             August 2, 2006



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T0433.001

[GRAPHIC] [TIFF OMITTED] T0433.002

[GRAPHIC] [TIFF OMITTED] T0433.003

[GRAPHIC] [TIFF OMITTED] T0433.004

[GRAPHIC] [TIFF OMITTED] T0433.005

[GRAPHIC] [TIFF OMITTED] T0433.006

[GRAPHIC] [TIFF OMITTED] T0433.007

[GRAPHIC] [TIFF OMITTED] T0433.008

[GRAPHIC] [TIFF OMITTED] T0433.009

[GRAPHIC] [TIFF OMITTED] T0433.010

[GRAPHIC] [TIFF OMITTED] T0433.011

[GRAPHIC] [TIFF OMITTED] T0433.012

[GRAPHIC] [TIFF OMITTED] T0433.013

[GRAPHIC] [TIFF OMITTED] T0433.014

[GRAPHIC] [TIFF OMITTED] T0433.015

[GRAPHIC] [TIFF OMITTED] T0433.016

[GRAPHIC] [TIFF OMITTED] T0433.017

[GRAPHIC] [TIFF OMITTED] T0433.018

[GRAPHIC] [TIFF OMITTED] T0433.019

[GRAPHIC] [TIFF OMITTED] T0433.020

[GRAPHIC] [TIFF OMITTED] T0433.021

[GRAPHIC] [TIFF OMITTED] T0433.022

[GRAPHIC] [TIFF OMITTED] T0433.023

[GRAPHIC] [TIFF OMITTED] T0433.024

[GRAPHIC] [TIFF OMITTED] T0433.025

[GRAPHIC] [TIFF OMITTED] T0433.026

[GRAPHIC] [TIFF OMITTED] T0433.027

[GRAPHIC] [TIFF OMITTED] T0433.028

[GRAPHIC] [TIFF OMITTED] T0433.029

[GRAPHIC] [TIFF OMITTED] T0433.030

[GRAPHIC] [TIFF OMITTED] T0433.031

[GRAPHIC] [TIFF OMITTED] T0433.032

[GRAPHIC] [TIFF OMITTED] T0433.033

[GRAPHIC] [TIFF OMITTED] T0433.034

[GRAPHIC] [TIFF OMITTED] T0433.035

[GRAPHIC] [TIFF OMITTED] T0433.036

[GRAPHIC] [TIFF OMITTED] T0433.037

[GRAPHIC] [TIFF OMITTED] T0433.038

[GRAPHIC] [TIFF OMITTED] T0433.039

[GRAPHIC] [TIFF OMITTED] T0433.040

[GRAPHIC] [TIFF OMITTED] T0433.041

[GRAPHIC] [TIFF OMITTED] T0433.042

[GRAPHIC] [TIFF OMITTED] T0433.043

[GRAPHIC] [TIFF OMITTED] T0433.044

[GRAPHIC] [TIFF OMITTED] T0433.045

[GRAPHIC] [TIFF OMITTED] T0433.046

[GRAPHIC] [TIFF OMITTED] T0433.047

[GRAPHIC] [TIFF OMITTED] T0433.048

                                 <all>

</pre></body></html>
